 United States International Trade Commission

              MARCH 12, 1998

            AUDIT REPORT ON:

   ASSESSMENT OF ITC PROCUREMENT
      POLICIES, PROCEDURES, AND
 PRACTICES TO DETERMINE THE EXTENT
 TO WHICH BEST PRACTICES OF RECENT
      ACQUISITION STREAMLINING
LEGISLATION HAVE BEEN INCORPORATED
                              CONTENTS

                                                                               Page

SECTION I:      INTRODUCTION AND BACKGROUND                                      1

SECTION II:     OBJECTIVES, SCOPE, AND METHODOLOGY                               6

SECTION III:    SUMMARY OF FINDINGS AND RECOMMENDATIONS                         13

SECTION IV:     FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS
                BY OBJECTIVE

       Chapter One                PURCHASE CARDS                                16
                                  RECOMMENDATIONS                               31

       Chapter Two                MICRO-PURCHASES                               34
                                  RECOMMENDATIONS                               48

       Chapter Three              SMALL PURCHASES                               49
                                  RECOMMENDATIONS                               68

APPENDIX        OVERVIEW OF SELECTED AGENCIES’ PURCHASE
                CARD PROGRAMS                                                   70

EXHIBITS:

      1         Purchase Card Authority
      2         Purchase Card Usage
      3         ITC Purchase Card Acquisition Process
      4         Proposed Stages
      5         Cardholders’ Monthly Usage
      6         ITC Micro-Purchase and Small Purchase Acquisition Process
      7         ITC Libraries' Micro-Purchase and Small Purchase Acquisition Process
             THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                   SIMPLIFIED ACQUISITION PROCEDURES
                SECTION I: INTRODUCTION AND BACKGROUND



SECTION I:            INTRODUCTION AND BACKGROUND
INTRODUCTION

The United States International Trade Commission (also “USITC”, “ITC”, or the “Commission”)
is an independent, bipartisan, quasi-judicial agency of the United States government created by
an act of Congress. Upon request, USITC provides advice to both the President and Congress on
tariff and trade matters and conducts investigations relating to the impact of imports on domestic
industries. USITC's authorized staffing level for Fiscal Year (FY) 1997 is 502 permanent
positions of which approximately 380 are funded. ITC's Congressional appropriations for FY
1996 and 1997, including carryovers and recessions were $40.6 and $40.8 million, respectively.

The Planning and Procurement Division (“PPD” or “Procurement”), Office of Management
Services processes all procurement actions, except for General Services Administration (GSA)
work orders, which are the responsibility of the Office of Management Services (OMS),
Facilities Support Division. The total number of procurement actions processed by Procurement
in the past two fiscal years has not varied significantly. Approximately $4 million of
procurements (not involving travel or rent) are processed annually. In the past 22 months (from
October 1, 1995, to July 31, 1997), 2,062 procurement transactions (including modifications to
existing procurement awards) were awarded for approximately $7.3 million. Sixty-seven percent
or approximately 1,400 of those transactions were procured with International Merchant
Purchase Authorization Cards ("I.M.P.A.C.’s", “Governmentwide Purchase Card”, or “Purchase
Cards”). Although Purchase Card transactions are a large percentage of the volume of
transactions, their use only accounted for approximately $600,000 or 8% of the total procurement
dollars awarded. Eighty-four percent or approximately 1,700 were Micro-Purchase transactions;
i.e., procurements not exceeding $2,500. These accounted for approximately $840,000 or 11%
of the total procurement dollars awarded.

Sixteen percent or approximately 325 were Small Purchase transactions (defined as those
acquisitions which exceed the Micro-Purchase threshold of $2,500 but which do not exceed the
simplified acquisition threshold of $100,000). These accounted for approximately $5.3 million
or 69% of the procurement dollars.




                                                1
             THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                   SIMPLIFIED ACQUISITION PROCEDURES
                SECTION I: INTRODUCTION AND BACKGROUND


BACKGROUND

For the past 50 years the pendulum of U.S. government procurement has swung back and forth
between two extremes: full and open competition at one extreme and sole source contracting at
the other. During this time there have been essentially two streams of commerce: companies
who refused to do business with the government or companies who were willing to do business
with the government and bemoaned doing so because of the "red-tape" and burdensome rules and
regulations governing federal procurement in general [Federal Acquisition Regulation FAR alone
contains thousands of pages of text], and the government-peculiar rules (which often conflicted
with standard commercial practices), in particular.

The Competition in Contracting Act (CICA) of 1984 reestablished a strong preference for full
and open competition with the belief that renewed competition could save the government
between 10 and 50 percent of its total acquisition budget. As a result, sealed bids, formal
advertising, and competitive negotiation were put on an equal footing and sole source contracts
had to be extensively justified.

With the benefits of competition came several unforeseen and serious problems; e.g., a large
increase in the number of offerors that must be formally evaluated; long, protracted procurement
cycles; and an overemphasis on cost rather than quality in awarding contracts that continues
today. Just as the Grace Commission set the stage for contract reform that led to CICA, the
Packard Commission Report, Defense Management Review, and the National Performance
Review led by Vice President Gore have all emphasized the major acquisition reform which
contributed to the enactment of legislation.

The Federal Acquisition Streamlining Act (FASA) of 1994 substantially changed the laws that
govern how U.S. government agencies acquire nearly $200 billion of goods and services
annually. Unlike prior acquisition reform such as CICA and the Truth in Negotiations Act
(TINA) which made major changes to specific processes and procedures within existing
acquisition law, FASA marks the beginning of acquisition reform that contemplates nothing less
than the restructuring of the procurement system.




                                               2
            THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
               SECTION I: INTRODUCTION AND BACKGROUND


The Five Major Streamlining Features of FASA include:

      A.     Acquisition of Commercial Items. FASA creates a statutory preference for
             commercial items. Commercial acquisition procedures are designed to encourage
             greater commercial sector participation and to give the government maximum
             access to competitive commercial markets and innovative commercial
             technologies. To emphasize the commercial item preference, FASA:

             -      totally revises (FAR) Part 12. It now applies only to commercial items and
                    takes precedence over any other FAR section for commercial item buys in
                    excess of the Micro-Purchase threshold;

             -      permits only firm fixed-price or fixed-price contracts with economic
                    adjustments to be used in government purchases of commercial items and
                    services;

             -      eliminates those clauses which in the past have restricted government
                    access to commercial markets; and

             -      allows offerors to propose (and contracting officers to accept) their own
                    terms and conditions.

      B.     Micro-Purchases. FASA establishes a Micro-Purchase threshold of $2,500 which:

             -      EXEMPTS purchases below this threshold from virtually all procurement
                    laws, CICA, and synopses requirements, including the formerly
                    untouchable Small Business Act and Buy-American Act requirements; and

             -      EMPOWERS government personnel to make these purchases efficiently
                    using the Purchase Card or other streamlined procedures provided for in
                    FAR Part 13; e.g., Blanket Purchase Agreements, purchase orders, and
                    imprest funds.

      C.     Simplified Acquisition Procedures. FASA streamlines statutory requirements for
             purchases at or below the simplified acquisition threshold of $100,000.

      D.     Electronic Commerce. FASA designates electronic commerce as the desired way
             of conducting business and mandates the creation of a federal acquisition
             computer network architecture (FACNET).




                                             3
             THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                   SIMPLIFIED ACQUISITION PROCEDURES
                SECTION I: INTRODUCTION AND BACKGROUND


       E.     Non-Commercial Acquisition Reform. FASA made significant changes to
              government unique (non-commercial) purchases, including: TINA, task
              order/delivery contracts, protest laws, etc.

Finally, FASA’s guiding principles provide a vision statement for the Federal Acquisition
System, including an explicit statement empowering the government work force to exercise
initiative in implementing any strategy, practice, policy, or procedure that is not prohibited by
FAR or otherwise prohibited by law [FAR Part 1.102(d)] and to deliver on a timely basis the best
value, product, or service to the customer, while maintaining the public’s trust.

Lastly, The Clinger-Cohen Act of 1996, (formerly the Federal Acquisition Reform Act and the
Information Technology Management Reform Act) clarifies FASA and establishes new rules to
improve the efficiency of the process, as well as:

       •      increases the simplified acquisition threshold from $100,000 to $5,000,000 for
              commercial items;

       •      establishes the concept of "efficient competition" by limiting the competitive
              range to "the offerors rated most highly;”

       •      expands FASA's emphasis on contracting for commercial items and services by
              explicitly exempting these procurements from TINA and Cost Accounting
              Standards (CAS);

       •      expands FASA's empowerment of government employees by permitting
              employees to conduct purchases without competitive quotations; and

       •      eliminates the link between the threshold for use of simplified acquisition
              procedures and FACNET certification, as well as the 12-month, $20,000
              procurement limitation for employees who are not contracting officers.




                                               4
             THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                   SIMPLIFIED ACQUISITION PROCEDURES
                SECTION I: INTRODUCTION AND BACKGROUND


ERA OF EMPOWERMENT - Not only are the laws which govern federal agencies’
acquisitions changing at a rapid rate, the climate in which acquisition takes place has been
dramatically affected as the following statements reflect:

              •       The Administrator of the Office of U.S. Federal Procurement Policy,
                      Office of Management and Budget, summarized the government's
                      streamlining goals when he stated that "our goal must be to move our
                      acquisition system from an obsession with process to an obsession with
                      results."

              •       The Deputy Under Secretary of Defense for Acquisition Reform stated
                      that: "We can no longer afford to fight a bureaucratic and rule-driven
                      system. We must be able to take advantage of the professionals we have
                      in the acquisition work force and allow them to exercise their judgment in
                      making sound business decisions on behalf of the U.S. government.
                      Additionally, new … challenges require us to design a more flexible, agile,
                      and timely acquisition process, while declining budgets require us to
                      become more efficient and effective as well as to reduce the costs of our
                      products and services."

The consensus of government policy makers is that the era of defensive, rule-based, process-
focused acquisition is over and that we are entering an era where government acquisition will be
driven by efficiency and effectiveness, resulting from streamlined procedures and the
empowerment of the government's workforce.




                                               5
            THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
            SECTION II: OBJECTIVES, SCOPE, AND METHODOLOGY



SECTION II: OBJECTIVES, SCOPE, AND METHODOLOGY
OBJECTIVES

                       Objectives For Chapter One: Purchase Cards

The primary objective of the review of ITC's procedures and practices governing the issuance,
use, and reconciliation of Purchase Cards was to determine the extent to which the Commission
has incorporated the acquisition streamlining mandates and best practices of FASA into its
Purchase Card practices. Specific sub-objectives were to:

       A.     determine the adequacy of the Commission’s policies and procedures for issuing
              Purchase Cards with respect to staff selection authorizations, including single
              purchase and monthly spending limits; Cardholder training; Card issuance; and
              when employees are transferred within or leave the Commission, cancellation of
              authorization and Card retrieval;

       B.     evaluate Commission policy and procedures governing the use of Purchase Cards
              to determine whether "best practices" for Purchase Card use are being utilized;

       C.     evaluate the Commission’s process for Purchase Card reconciliation to determine
              whether:

              i)     the Statement of Account reconciliation process contains adequate pre-
                     payment approval controls (SOA) and

              ii)    there is an established Statement of Account review schedule that provides
                     for timely reconciliation on monthly statements and that reviews are
                     completed on time;

       D.     determine if procedures and practices for disputing questioned Card purchases are
              in compliance with the terms and conditions of the Purchase Card contract with
              Rocky Mountain BankCard System (RMBCS).

       E.     determine the number of late payments made to RMBCS and the related cost of
              these to the ITC;

       F.     determine whether and under what circumstances the Commission can receive
              rebates, the number of rebates received, and the cost saving attributable to these;




                                               6
             THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                   SIMPLIFIED ACQUISITION PROCEDURES
             SECTION II: OBJECTIVES, SCOPE, AND METHODOLOGY


       G.     evaluate Purchase Card use data and recommend improvements in Card
              distribution and use; and

       H.     determine the extent to which Purchase Card use led to administrative savings or
              other benefits.

                      Objectives For Chapter Two: Micro-Purchases

The objective of this review of ITC’s Micro-Purchase policies, procedures, and practices was to
determine the extent to which the Commission has incorporated the acquisition streamlining
mandates and best practices of FASA into its Micro-Purchase policies, procedures, and practices.
Specific sub-objectives were to:

       A.     determine whether current Commission policies, procedures, and practices take
              advantage of best practices for Micro-Purchases. Specifically:

              i)      determine the extent to which the best practices of ascertaining price
                      reasonableness have replaced the practice of obtaining multiple quotations;

              ii)     determine the practice for requesting Micro-Purchases and evaluate the
                      efficiency of the process; and

              iii)    determine the primary methods used to procure Micro-Purchases.

       B.     select a sample of Micro-Purchases (excluding Purchase Card transactions) made
              from October 1, 1995 through July 31, 1997 to determine whether:

              i)      the procurement method chosen was the most appropriate one and

              ii)     for the procurement method chosen, the process was completed in the
                      most efficient manner.

       C.     identify ways in which the Commission could further streamline ITC’s Micro-
              Purchasing process.




                                               7
             THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                   SIMPLIFIED ACQUISITION PROCEDURES
             SECTION II: OBJECTIVES, SCOPE, AND METHODOLOGY


                      Objectives For Chapter Three: Small Purchases

The primary objective of this review of ITC's Small Purchase policies, procedures, and practices
was to determine the extent to which the Commission has incorporated the acquisition
streamlining mandates and best practices of FASA into its Small Purchase practices. Specific
sub-objectives were to:

       A.     determine whether current Commission policies, procedures, and practices take
              advantage of "best practices" for Small Purchases (those between $2,500 and up
              to and including $100,000); namely:

              i)      determine the extent to which the practices for obtaining competition are
                      being utilized, including number of quotes required versus number
                      obtained and minimum documentation requirements versus documentation
                      actually prepared;

              ii)     determine the practice for requesting Small Purchases and evaluate the
                      efficiency and effectiveness of the process; and

              iii)    determine the primary methods used to procure Small Purchases;

       B.     select a sample of Small Purchases and determine whether:

              i)      the procurement method chosen was the most appropriate one and

              ii)     for the procurement method chosen, the process was completed in the
                      most efficient manner;

       C.     analyze schedule versus open market purchases. Determine if cost savings may be
              achieved through increased schedule buying;

       D.     evaluate the Commission’s plans for meeting the FASA requirements of
              becoming fully capable of using FACNET for at least 75% of eligible contract
              awards. Specifically:

              i)      evaluate the reasonableness of such plans and the Commission’s goals for
                      implementation of such plans and

              ii)     determine the extent, by fiscal year, to which FACNET has been utilized
                      for eligible Small Purchase awards;




                                               8
              THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                    SIMPLIFIED ACQUISITION PROCEDURES
              SECTION II: OBJECTIVES, SCOPE, AND METHODOLOGY


       E.      evaluate the efficiency and effectiveness of the invoice approval and payment
               process for both Micro-Purchases and Small Purchases; and

       F.      identify ways in which the Commission could further streamline its procurement
               process for Small Purchases.

SCOPE

The assessment of ITC's policies, procedures, and practices related to Purchase Cards, Micro-
Purchases, and Small Purchases was conducted at ITC headquarters in Washington, DC, between
August 12 and October 22, 1997. Only transactions less than or equal to $100,000 were subject
to review. Transaction data for Purchase Cards, Micro-Purchases, and Small Purchases was
reviewed for FYs 1996 and 1997 through July month end.

METHODOLOGY

Data was gathered for this review through interviews, sample tests of transactions, financial data,
observations, review and analyses of procurement statistics, procedures, reports, relevant
streamlining legislation and acquisition regulations as well as system documentation and training
course manuals.

The major documents used in the review include:

   •        Federal Acquisition Streamlining Act of 1994, Public Law 103-355;
   •        Clinger-Cohen Act of 1996, Public Law 104-106;
   •        Office of Inspector General Report No. IG-01-94, "Review of Procurement Related
            Issues," dated February 7, 1994;
   •        Office of Inspector General Report No. IG-08-91, "Audit of Procurement Policies and
            Procedures within the USITC," dated September 13, 1991;
   •        GAO Report GAO/NSIAD-96-139, "Acquisition Reform: Regulatory Implementation
            of the Federal Acquisition Streamlining Act of 1994," dated June 1996;
   •        GAO Report GAO/NSIAD-96-138, "Acquisition Reform: Purchase Card Use Cuts
            Procurement Costs, Improves Efficiency," dated August 1996;
   •        USITC Directive 3603, dated 2/27/90, "Governmentwide Commercial Credit Card
            Service;”
   •        USITC Directive 3601.1, dated 9/18/92, "Contracting and Procurement Policies and
            Procedures;"
   •        USITC Administrative Notice ITC-N-3601A, Delegation of Procurement Authority,
            dated June 26, 1992;
   •        "I.M.P.A.C. Remote Access System Users Guide," dated August 1996, issued by
            RMBCS;



                                                9
             THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                   SIMPLIFIED ACQUISITION PROCEDURES
             SECTION II: OBJECTIVES, SCOPE, AND METHODOLOGY


   •      "Data Transmission Documentation," revised August 13, 1996, issued by the RMBCS
          I.M.P.A.C. Product Manager;
   •      U.S. GSA Federal Supply Service Contract Number GS-23F-94031 with RMBCS;
   •      Federal Acquisition Regulations in effect during our fieldwork and changes issued in
          February 1998; and
   •      Miscellaneous National Contract Management Association streamlined acquisition
          training manuals designed to document the Purchase Card issuance, utilization, and
          reconciliation process.

Interviews were conducted with:

   •      All staff with procurement authority in PPD, along with the Chief of PPD;
   •      All Purchase Cardholders, several Approving Officials, and the RMBCS Agency
          Program Coordinator;
   •      Director, Office of Finance and Budget, the Finance Division Chief, the Budget
          Division’s Budget Analyst, and an Accounting Technician;
   •      Director of OMS, Chief of Facilities Support Division (FSD), FSD Management
          Analyst, FSD Facilities Management Analyst, and a Support Services Specialist;
   •      Director, Office of Administration; and
   •      Procurement staff in the United States Department of Transportation, United States
          Coast Guard, National Aeronautic and Space Administration, United States Federal
          Trade Commission, and the United States Department of Justice.

Flowcharts were developed to document the Commission’s procurement process. Because all
procurement activity within the ITC follows the same process (prescribed by USITC Directive
3601.1, Contracting Procurement Policies & Procedures, dated 9/18/92), consolidated flowcharts
were prepared for the phases of this review where there were no variations in the process.




                                             10
               THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                     SIMPLIFIED ACQUISITION PROCEDURES
               SECTION II: OBJECTIVES, SCOPE, AND METHODOLOGY


                            Sampling For Chapter One: Purchase Cards

Purchase Card transactions were sampled for FY 1996 and 1997 through July month-end by
selecting purchase transactions from ITC Cardholder statements. The sample was selected by
arranging the Cardholder statements in chronological order and by using a random number table
for each defined population. The samples in respect to the populations were:

                                                                                                   Selected 5%
6 POPULATIONS DEFINED:                                                   Population Size           Sample Size

    1) Law Library Cardholders               FY 1997                                112                         6
    2) Law Library Cardholders               FY 1996                                 95                         5
    3) Main Library Cardholders              FY 1997                                403                        20
    4) Main Library Cardholders              FY 1996                                324                     None1
    5) All Other Cardholders                 FY 1997                                260                        13
    6) All Other Cardholders                 FY 1996                                184                     None1
                                             Total                                1,378                        44


                            Sampling For Chapter Two: Micro-Purchases

Micro-Purchase transactions were assessed for FYs 1996 and 1997 as follows:

                                                                                 Micro-
                                                             Total             Purchases:
                                                            Micro-            non-Purchase    Sample
                                                           Purchases        Card Transactions Size

FY 1997                                                            891                   181                  18
FY 1996                                                            833                   229                  11
  Total                                                          1,724                   410                  29

The sample sizes for FY 1996 and 1997 to date were selected from the population of remaining
Micro-Purchases at 5% and 10% respectively. The sample size of 29 procurement transactions
was selected from a Standard Automated Contracting System (SACONS) report using a random
number table as the selection method.




1
        1996 was not performed in lieu of concentrating efforts on examining recent; i.e., 1997 activity.



                                                        11
             THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                   SIMPLIFIED ACQUISITION PROCEDURES
             SECTION II: OBJECTIVES, SCOPE, AND METHODOLOGY


                      Sampling For Chapter Three: Small Purchases

A 10% sample of Small Purchase transactions were assessed for FY 1996 and 1997 through July
31, 1997. The sample size of 32 transactions was selected from a SACONS report using a
random number table as the selection method. The sampling in respect to the populations was as
follows:

                                                                     Total
                                                                     Small         Sample
                                                                   Purchases        Size

FY 1997                                                                161            16
FY 1996                                                                164            16
  Total                                                                325            32




                                             12
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                   SIMPLIFIED ACQUISITION PROCEDURES
        SECTION III: SUMMARY OF FINDINGS AND RECOMMENDATIONS



SECTION III: SUMMARY OF FINDINGS
                 AND RECOMMENDATIONS
SUMMARY OF FINDINGS: Purchase Cards

Consistent with government-wide trends, ITC's Purchase Card use has increased from one
Cardholder and ten transactions in FY 1990 to 12 Cardholders and an estimated 900 transactions
in FY 1997. Administrative savings attributable to Purchase Card use in FY 1997 are nearly
$50,0001. In addition, it appears that the use of Purchase Cards in conjunction with contract
specialist’s emphasis on FAR Part 8 have helped ITC to absorb the impact of staff reductions and
manage its contracts workload with reduced staff. ITC's outdated Purchase Card Directive,
Directive 3603: Governmentwide Commercial Credit Card Service dated 2/27/90, does not have
policies promoting FASA streamline processes or promoting the use of the Purchase Card; the
Directive operates under seven year old Purchase Card procedures. The Directive sets forth a
multi-approval, paper-intensive process with little evidence of simplification or streamlining,
which is followed by the Cardholders with two notable exceptions.

The exceptions which displayed some evidence of streamlining occurred in the Law Library and
the Main Library. These libraries apply a number of "best practices" for using Purchase Cards,
namely: one-time commitment of funds at the beginning of the fiscal year, empowerment of
employees to function with fewer restrictions, emphasis on reasonable price over lowest price,
and simplified statement reconciliation processes.

SUMMARY OF FINDINGS: Micro-Purchases

In FYs 1996 and 1997 (through July month end), ITC made a total of 1,724 Micro-Purchase
transactions, totaling $849,000. Of the 410 not made with the Governmentwide Purchase Card,
approximately 291 (or 71%) were made with Purchase Orders and Delivery Orders; 88 (or 21%)
were made with Blanket Purchase Agreements; 31 (or 8%) were made with Imprest Funds (in FY
1996 only), and Interagency Agreements. See Chart on page 40.




1
       This assumes a savings of $54 per transaction over the cost of issuing a purchase order in accordance with a
       U.S. General Accounting Office government-wide estimate.



                                                       13
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                   SIMPLIFIED ACQUISITION PROCEDURES
        SECTION III: SUMMARY OF FINDINGS AND RECOMMENDATIONS


All Micro-Purchases made by any of these methods must adhere to ITC’s formal contracting
procedures documented in USITC Directive 3601.1 dated September 18, 1992, which pre-dates
all recent acquisition streamlining legislation by at least two years. These written procedures do
not reflect the revised acquisition thresholds, simplified acquisition procedures, or other key
streamlining concepts such as the Commercial Item preference, bulk funding1, and employee
empowerment emphasized by FASA and other relevant acquisition reform legislation.

SUMMARY OF FINDINGS: Small Purchases

In FYs 1996 and 1997 (through July month end), ITC conducted a total of 325 Small Purchase
transactions, totaling $5,335,000. While this represents only 16% of total procurement actions
during this period, Small Purchases account for over two-thirds (69%) of total acquisition dollars
expended during this period. Of the 325 Small Purchase transactions completed by ITC in FY
1996 and 1997, 94 (29%) with Delivery Orders under (GSA) Federal Supply Schedules (FSS);
77 (24%) were made by Purchase Orders; 55 (17%) were made under Blanket Purchase
Agreements; 35 (11%) were made by Inter-Agency Agreements; 30 (9%) were made by the
libraries as Purchase or Delivery Orders; 23 (7%) were made by (I.M.P.A.C.s); and 11 (3%) were
made by other means (contracts, tender agreements). (See chart on page 56.)

The Commission’s Contracting and Procurement Policies and Procedures documented in USITC
Directive 3601.1, dated September 18, 1992, are more than 5 years old. Because these predate
FASA and other acquisition streamlining legislation, important streamlined acquisition policies
and implementing procedures related to revised acquisition thresholds and simplified acquisition
procedures are not included. However, it should be noted that in all cases where there is a
discrepancy between an agency's procurement regulations and the FAR, the FAR takes
precedence. Consequently, by following the FAR in those instances where ITC's Small Purchase
procedures are not current, the Commission's contract specialists staff have effectively avoided
the pitfalls that could result from application of outdated procedures.

SUMMARY OF RECOMMENDATIONS

The Commission needs to develop a comprehensive acquisition policy that:

       A.      reflects both the letter as well as the intent behind recent acquisition streamlining
               legislation;




1
       FAR section 13.101 defines "bulk funding" as a system whereby a contracting officer receives
       authorization from a fiscal and accounting officer to obligate funds on purchase documents against a lump
       sum of funds reserved for the purpose for a specified period of time rather than obtaining individual
       obligational authority on each purchase document.



                                                      14
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                   SIMPLIFIED ACQUISITION PROCEDURES
        SECTION III: SUMMARY OF FINDINGS AND RECOMMENDATIONS


       B.      encourages and empowers its work force to change its posture from one that is
               heavily focused on process and control to one that emphasizes results and
               empowerment;

       C.      rewards creativity and ingenuity by utilizing the employee performance review
               process and to accept honest mistakes as part and parcel of the cost of change;

       D.      permits ITC professional staff to creatively apply their professional judgment as
               well as the knowledge, skill, and abilities inherent to their positions;

       E.      replaces written paper-intensive approval points with decision points that can be
               verified by periodic post audits;

       F.      utilizes Purchase Cardholders' expertise in Micro-Purchase acquisition by
               decentralizing procurement of all Micro-Purchase procurements and empowering
               these non-Procurement professionals (Purchase Cardholders) to perform non-
               Purchase Card Micro-Purchases;

       G.      emphasizes that every eligible purchase be made with Purchase Cards; and

       H.      uses technology in a way that reinforces empowerment and process simplification.

Specific recommendations to achieve these goals are stated at the end of each chapter and
numbered sequentially throughout this report. The resulting policy statement will provide the
Commission a powerful tool for communicating its endorsement of recent changes in federal
acquisition streamlining law to its work force. The vehicle for institutionalizing this policy is a
management approach that consistently encourages the individual initiative needed to create an
efficient and effective acquisition system.

Following the development of an appropriate streamlined acquisition policy statement, ITC
should revisit the issue of electronic commerce and determine which of the procurements
currently made by other methods could be accomplished via electronic commerce using Purchase
Cards.

SUMMARY OF COMMISSION COMMENTS

The Director of Administration agreed with our recommendation to write an acquisition policy
statement and update ITC Directives 3601.1 and 3603. He proposes to award a contract to write
the policy statement by April 1, 1998. Upon completion of this policy statement he will update
Directives 3601.1 and 3603. Expected completion date for these two projects is expected to be
March 1, 1999.




                                                15
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One



 SECTION IV: FINDINGS, CONCLUSIONS, AND
             RECOMMENDATIONS BY OBJECTIVE
                        CHAPTER ONE: PURCHASE CARDS

 The following are the findings, conclusions, and recommendations for strengthening ITC's use of
 the Governmentwide Purchase Card as organized by objectives listed on page 6.

 OBJECTIVE A

 Determine the adequacy of the Commission’s policies and procedures for issuing Purchase Cards
 with respect to staff selection authorizations, including single purchase and monthly spending
 limits; Cardholder training; Card issuance; and when employees are transferred within or leave
 the Commission, cancellation of authorization and Card retrieval.

 FINDINGS

 Exhibit 1 - entitled “Purchase Card Authority”, identifies all ITC employees currently authorized
 to use the Governmentwide Purchase Card, their Approving Officials, and their single purchase
 and monthly spending limits at both July 31, 1997 and at September 5, 1997. Exhibit 2 entitled
 “Purchase Card Usage” discloses those Cardholders with FY 1996 and FY 1997 (through July
 31) statistics concerning their average dollar amount charged per month, average number of
 transactions per month, and average amount of purchase.

 RMBCS requires that each agency establish its own internal operating procedures and that these
 conform to the terms and conditions of RMBCS' government-wide contract prior to that agency's
 participation in the Purchase Card program. ITC issued such procedures under USITC Directive
 3603, dated 2/27/90, "Governmentwide Commercial Credit Card Service”.

 Purchase Card issuance has been identified as a four-step process which involves:

        A.     Identify Cardholder and Designate an Approving Official. Cardholders are
               selected on an as-needed basis. Generally, those employees who previously had
               an ongoing need to frequently request modest purchases are the employees who
               have been issued a Purchase Card, based on the recommendation of the Chief of
               PPD. Approving Officials are appointed by the Director of OMS in an official
               written notification.

        B.     Procurement Authority. Procurement authority is delegated to each Purchase
               Cardholder in the form of single-purchase and thirty-day purchase limits. At ITC


                                                16
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


               all procurement authority is formally delegated by the Chairman, through the
               Director, Office of Administration. During the period of our review, ITC officials
               changed the limits for several Cardholders. The revisions, made in response to
               information received at a government-wide conference, consisted of lowering
               non-procurement personnel single purchase limits to the Micro-Purchase
               threshold and raising limits for some procurement personnel.

        C.     Training. ITC's Purchase Card Directive 3603 requires formal training OR on-
               the-job training for Cardholders. At the time of Purchase Card issuance, the
               RMBCS Agency Program Coordinator distributes to the Cardholder and to the
               Approving Official a packet of materials concerning Purchase Card use and
               procedure. Formal training is readily available from either the USDA Graduate
               School or Management Concepts, Inc. While all Cardholders and interviewed
               Approving Officials said that they had received formal training, three Cardholders
               indicated that their training was received well after Purchase Card issuance and
               usage. In addition, Cardholders have not been receiving on-going training
               concerning Micro-Purchase regulations.

        D.     Card Issuance. Purchase Cards are issued by RMBCS upon completed, signed
               application by individual Cardholders.

 ITC's Purchase Card Directive 3603 requires Cardholders who are either separating from USITC
 employment or being reassigned to duties which do not require use of the Purchase Card to
 surrender the Cards to their Approving Official. The Approving Official is required to destroy
 the Card and complete the Card destruction notice. ITC's personnel procedures require
 immediate supervisors (who are Approving Officials at ITC) to initial the employee’s separation
 checklist indicating that all government property has been surrendered. According to ITC Office
 of Personnel, the Personnel’s employee separation forms have not been modified to require a
 specific sign off for the return of employee’s Purchase Card.

 When an Approving Official separates from ITC employment or is discharged of Approving
 Official responsibilities, RMBCS will transfer Cardholders from that Approving Official to
 another Approving Official within the same authority level without reissuing a new Card.
 However, ITC's Purchase Card Directive 3603 does not stipulate the cancellation of an
 Approving Official’s authority upon discharge of those responsibilities.




                                               17
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


 CONCLUSIONS

 ITC's written procedures for Purchase Card issuance do not vary significantly from its internal
 practices and are consistent with those contained in the RMBCS contract document
 "Governmentwide Commercial Credit Card Service". The recent revisions to the single purchase
 and monthly spending limits are appropriate and consistent with practices observed within other
 agencies. The impact of some Cardholders being trained after Card issuance does not appear to
 be significant due in part to the "technical assistance" provided by contract specialist staff.

 The following items should be considered in any formal policy modifications:

 •   Training should be provided by in-house procurement professionals who have the knowledge
     and experience of performing Micro-Purchase transactions.

 •   Employee separation checklists should include certifications that an employee’s Purchase
     Card has been surrendered and his or her authorization has been revoked.


 OBJECTIVE B

 Evaluate Commission policy and procedures governing the use of Purchase Cards to determine
 whether "best practices" for Purchase Card use are being utilized.

 FINDINGS

 ITC's Purchase Card acquisitions are governed by the terms and conditions of RMBCS contract
 with GSA dated February 16, 1994, and USITC Directive 3603, entitled “Governmentwide
 Commercial Credit Service,” dated February 27, 1990. Purchase Card acquisitions are made in
 accordance with FAR and the Commission's Contracting and Procurement Procedures set forth in
 USITC Directive 3601.1 dated September 18, 1992, which governs all procurement activity
 within the Commission.

 Exhibit 3 - “ITC Purchase Card Acquisition Process,” contains a simple flowchart of the
 Commission's current process and practices for the acquisition of goods and services using the
 Governmentwide Purchase Card. This process is used by all ITC Cardholders, however,
 significant variations were noted in both the Law Library and the Main Library. Those
 Cardholders outside of the libraries account for approximately 32% of total Purchase Card
 transactions and 51% of total Purchase Card expenditures in FYs 1996 and 1997. ITC’s
 Purchase Card acquisition process contains 10 identified steps or functions; each is briefly
 described below. Variations observed in each library's practices are noted.



                                                18
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One



      A.   Requisition Documentation. Either the "customer" (requisitioner other than the
           Cardholder) or the Cardholder prepares a formal procurement requisition (ITC
           internal Form 51, “Requisition for Supplies or Services”) for needed goods and
           services. (The Main Library does not require use of a Form 51. It may be
           replaced by E-mail and renewal notices.)

      B.   Approval and Commitment. The Requester obtains the required approvals. The
           Form 51 is required to be signed by authority of the Requester’s Division Chief
           and/or Office Director. In addition, if neither the Division Chief or the Office
           Director are the Cost Center Manager (CCM), then the Requisition also needs to
           be approved by the CCM; i.e., the person responsible for certifying the funds from
           the cost center. (Since the Main Library is not necessarily using a Form 51, the
           Main Library eliminates the requirement of Requisition Form approval.)

      C.   Procurement Review. Completed requisitions are screened by contract specialist
           staff for completeness and proper approvals prior to submitting the requisition to
           the Budget Division for ensuring funds are available for the commitment. (The
           Main Library and Law Library skip this step.)

      D.   Commitment Funding Approval. The Budget Division reviews the requisition to:

                  •   check for authorized signatures,
                  •   assign the accounting classification, and
                  •   verify that the funds are available for the commitment.

           (The Law Library skips this Budget Division review step.)

      E.   Procurement Assignment. Requisitions for which funds have been committed are
           returned to PPD for review and assignment to one of the contract specialist staff.
           (This step does not apply to the Main or Law Library.)

      F.   Procurement Processing System Award Form. Each Cardholder completes a
           Credit Card Authorization form on ITC’s Procurement System, SACONS. The
           Cardholder enters descriptive data, quantity needed, vendor selected, and price;
           the form is then signed and given to an Approving Official for signature. In
           practice steps F and G are carried out simultaneously. (This step is treated
           separately for evaluation purpose in order to highlight potentially duplicative
           functions and approvals.)




                                           19
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


      G.      Obligation and Award. All Cardholders shop for supplies and services in
              accordance with ITC/FAR procurement regulations, obtain telephone quotes, and
              enter quotes on a “Record of Telephone Credit Card Order.” The Cardholder
              assesses the quoted prices for the most reasonable one, selects the vendor using
              predominantly open market vendors and the GSA FSS vendors, and places their
              order.

           ITC does not use the pre-designated RMBCS Activity Type Codes to assist in the
              control of Cardholders use of the Purchase Card. Therefore, the Cardholder is not
              currently subject to the RMBCS point of sale approval process which limits
              purchases based on these Activity Type Codes. The Cardholder is free to make a
              procurement of goods and services from any approved RMBCS merchants.

              (The Main Library does not prepare the Record of Telephone Credit Card Order at
              the time of acquisition; some notations concerning the calls are made informally
              on other documentation supporting the acquisition.)

      H.      Receipt. Supplies or services are received and examined to ensure they conform
              with specifications. Procurement requisition and/or Credit Card Authorization
              form is rated and controlled items are inventoried.

      I.      Statement Reconciliation.       Cardholders reconcile RMBCS statements by
              completing and attaching documentation considered necessary by the Approving
              Official; e.g., the ITC Requisition Form 51, the Credit Card Authorization Form,
              the Record of Telephone Credit Card Order, packing slips associated with receipt
              of goods, and any other documents maintained for the transaction. ITC Purchase
              Card Directive 3603 requires a vendor receipt (if purchased in person), a log of
              the phone call (if purchased via telephone), shipping documents, and “all
              supporting documentation” to be attached to the Cardholder Statement of
              Account. In addition, the Directive requires the Cardholder to document the
              accounting classification and a description of the transaction onto the SOA.

              The Statement and attached documentation is reviewed by the Approving Official,
              and once the Official is satisfied as to propriety of the documentation and charges,
              the Cardholder Statement is signed as evidence of his or her approval. (The Main
              Library prepares the Record of Telephone Credit Card Order at the time of
              reconciliation using the informal notations made at the time of acquisition.)

      J.      Payment to RMBCS. Reconciled statements along (in most cases) with attached
              documentation, is sent to the Office of Finance and Budget (OFB) for payment.



                                               20
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


 These ten functions, as documented in Exhibit 3, provide the framework for assessing the extent
 to which ITC has incorporated the acquisition streamlining provisions mandated by FASA in the
 Commission’s policies, procedures, and practices. It is important to note that though Purchase
 Card use predates recent federal government streamlining efforts by nearly 10 years, it was the
 passage of FASA in 1994 that has made it significantly easier for program officials to use their
 Purchase Card.

     FINDINGS: KEY ELEMENTS OF ACQUISITION STREAMLINING LEGISLATION

 Key elements of recent acquisition streamlining legislation which have facilitated the use of
 Governmentwide Purchase Cards include:

        •      the creation of a commercial item preference, which emphasizes the acquisition of
               commercial items utilizing commercial acquisition methods;

        •      the creation of a $2,500 Micro-Purchase threshold which eliminates purchases
               under $2,500 from nearly all existing procurement regulations;

        •      emphasis on the streamlining concepts of efficient and effective acquisition and
               the empowerment of the acquisition workforce to allow them to exercise
               judgment in making sound business decisions on the part of the U.S. government;

        •      emphasis on "reasonable-price" and "best-value”; emphasis on Purchase Cards as
               the preferred means for purchasing and paying for Micro-Purchases; and

        •      an endorsement of bulk funding when multiple purchases are to be made using the
               same type of fund.

                     FINDINGS: PURCHASE CARD BEST PRACTICES

 From the above changes have emerged several "best practices" for the use of Purchase Cards
 which are now in use in Executive Agencies of the U.S. government and which together have
 streamlined the Purchase Card process. These include:

        A.     Bulk Funding. Bulk funding commits funds for the fiscal year in advance, it
               eliminates the need to: complete multiple purchase requests, obtain approvals,
               and obtain funding commitments for each in a series of similar purchases. The
               preference for bulk funding is specifically noted in FAR Part 13.101(b)(4).




                                               21
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


        B.     Reasonable Price. In the Micro-Purchase environment the administrative cost of
               verifying price reasonableness and obtaining competitive quotes often offsets the
               potential savings of detecting instances of overpricing; therefore, individuals are
               permitted to make an award without these steps if they determine the price to be
               reasonable.

        C.     Empowerment. Empowerment denotes encouraging employees to use their
               professional judgment. When used in conjunction with other best practices,
               empowerment becomes an important tool for creating efficiency and effectiveness
               in the acquisition process. For example, reasonable price empowers buyers to
               avoid the time-consuming process of obtaining competitive quotes when, from
               experience, they know the price is reasonable. (Specifically, Federal Acquisition
               Reform Act (FARA), Section 4311 empowers employees to make Micro-
               Purchases without competitive quotations.) Bulk funding decisions can lead to a
               more efficient process by eliminating repetitive approvals for commitment of
               funds. In addition, empowerment will eliminate unnecessary approvals and
               burdensome documentation requirements by eliminating or reducing control
               points within any process.

        D.     Efficiency and Effectiveness.        Efficiency and effectiveness involves an
               elimination of steps and increased time and cost savings with minimal sacrifice of
               quality. An example of accomplishing efficiency and effectiveness would be the
               diligent use of source priority regulations found in FAR Part 8 while permitting
               the exercise of professional judgment.

        E.     Emphasized Card Use. Since the Purchase Card is the preferred means for buying
               and paying for Micro-Purchases [as noted in FAR Part 13.201(b)] a high
               percentage of Purchase Card buys to total Micro-Purchase transactions is
               indicative of a best practice.

 These “best practices” are the target "evaluation criteria" used to determine the extent to which
 procedures and practices have been adapted to best practices for Purchase Card utilization.




                                                22
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


 CONCLUSIONS

 A.   Written Acquisition Streamlining Policies are needed. As indicated previously, USITC
      Directive 3601.1 contains the Commission's official "Contracting and Procurement
      Policies and Procedures." However, ITC has not yet developed a specific streamlined
      acquisition policy statement that prioritizes and endorses the streamlined acquisition
      policies within the Commission. Today, as government procurement continues to evolve
      from a focus on process to a focus on results, it becomes essential that each government
      agency have a clear statement of its acquisition policies. Behind recent streamlining
      legislation and its focus on efficient/effective, simplified acquisition was the important
      concept of empowerment. Simplified acquisition will not work if the acquisition work
      force is not empowered (encouraged to use their knowledge, skills, and abilities for
      efficient and effective change).

 B.   Assessment of ITC's Written Procedures is needed to govern the use of Purchase Cards
      with the Commission.

      Both USITC Directives governing Purchase Card use; i.e., USITC Directive 3603, dated
      2/27/90, "Governmentwide Commercial Credit Card Service," and USITC Directive
      3601.1, dated 9/18/92, "Contracting and Procurement, Policies and Procedures," are
      outdated. Both of these Directives pre-date FASA and other recent streamlining
      legislation, and therefore, do not contain the policies, procedures, and revised acquisition
      levels necessary to implement FASA. In the event conflicts occur between in-house
      policies and procedures and the government-wide RMBCS contract, internal practices at
      ITC comply with the RMBCS contract.

      Also, as indicated by the Inspector General's (IG's) response comments, the ITC draft-
      stage document “Procedures for Credit Cardholders” does not incorporate the
      streamlining legislation. The IG's response comments, dated December 12, 1996,
      correctly pointed out that these revised procedures remain very similar to the
      Commission’s regular procurement procedures, and recommended that these procedures
      be radically revised (streamlined) in order to take full advantage of simplified acquisition
      authority. The specific recommendations: to establish bulk funding for purposes of
      eliminating the need to obtain fund commitments and other approvals for each purchase;
      eliminating formal purchase request documents and ensuring that simplified competition
      requirements are consistent with established best practices of bulk funding, efficiency and
      effectiveness, and reasonable price promoted by FAR and identified in several other
      agency practices observed in the review.




                                              23
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


 C.   Assessment of ITC Purchase Card Practices is needed. With one noteworthy exception,
      the assessment of ITC's principal Purchase Card process revealed only limited utilization
      of the five best practices tested.

      i)     Purchase Card Use. ITC's Purchase Card use has grown consistently from a total
             of 10 transactions in FY 1990 to nearly 900 in FY 1997. Card use from FY 1996
             to FY 1997 has increased 50% from approximately 600 transactions in FY 1996
             to 900 transactions (projected) in FY 1997. Fifty-six percent of total Micro-
             Purchase dollars in combined FY 1996 and 1997 were made with the
             Governmentwide Purchase Card.

             This data provides a strong example of a "best practice" situation. According to
             FAR Part 13.201(b) the Purchase Card is the preferred means to acquire and pay
             for Micro-Purchases. The U.S. General Accounting Office (GAO), as well as
             many individual agencies, have determined that Purchase Card use produces
             tangible (but difficult to compute) savings by providing an efficient and low cost
             procurement mechanism that saves time and money.

      ii)    Bulk Funding. FAR Part 13.101(b)(4) states that agencies shall use bulk funding
             to the maximum extent practicable to reduce processing time, handling and
             documentation and that bulk funding is particularly appropriate if numerous
             purchases using the same type of funds are to be made during a given period.
             Savings attributable to the best practice of bulk funding result from the
             elimination of redundant form preparation and approval steps associated with the
             need to obtain fund commitments for each individual procurement action. Bulk
             funding has been strongly resisted in the past by the Director of the Office of
             Finance and Budget on the basis that program offices have been unable to
             consistently maintain an accurate balance of funds available. However, if
             program offices were to maintain proper records concerning funds availability, be
             properly trained for their responsibilities concerning the bulk funds, and be held
             accountable for their bulk funds, the Director would be receptive to establishing
             bulk funding.

             By incorporating the best practice of bulk funding consistent with the practice
             used by the Law Library, ITC could simplify step A in Exhibit 3 by eliminating
             the need for formal purchase request for each transaction and eliminate steps B
             through E as depicted in Exhibit 3 by performing the commitment of ITC as part
             of step A.

      iii)   Empowerment. Other than Main Library’s decision to not require signature
             approval of informal purchase requests, no examples of employee empowerment


                                             24
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


            were identified in either ITC’s procedures or practices for Purchase Card use. To
            the contrary, this process relies heavily on checks and balances in the form of
            multiple approvals and review steps which tend to disempower employees and
            limit initiative. ITC’s control focus appears to be the result of attempting to adapt
            formal agency contracting procedures to Micro-Purchases made with Purchase
            Cards. The concept of empowerment is key to government's implementation of a
            streamlined acquisition. FAR Part 13.003(i)(4) encourages contracting officers to
            take innovative approaches in the award of contracts using innovative procedures.
            The government’s acquisition policy-makers have consistently emphasized the
            importance of empowerment.

            A fully empowered acquisition work force within the ITC (without any other
            changes), in the context of Exhibit 3, could:

            •      eliminate the need for all or most supervisory approvals required after step
                   A until Approving Officials approve the statements of account in step I;

            •      eliminate step C; and

            •      eliminate within step G the practice of obtaining quotes for the purpose of
                   determining low price, when reasonable price is the best practice standard.

      iv)   Reasonable Price. Interviews with ITC contract specialist staff revealed that
            Purchase Card transactions for Micro-Purchases were carried out in accordance
            with FAR Part 13.202(a)(2) which permits awards without the solicitation of
            competitive quotes when the buyer considers the price to be reasonable. Card
            users outside of the contract specialists reported that they routinely solicit
            quotations when conducting Purchase Card transactions, even when these are
            repetitive buys for the same or similar items. The FAR, however, establishes a
            presumption of reasonable price for Micro-Purchases unless the buyer has
            information to indicate that the price may not be reasonable.




                                             25
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


      v)     Efficiency and Effectiveness. One of the stated purposes of FAR Part 13.002(c)
             (Simplified Acquisition Procedures) is to promote efficiency and economy in
             contracting through prescribed simplified procedures. FAR also encourages
             persons responsible for the acquisition of the government’s goods and services to
             be resourceful by using methods and approaches that are not specifically
             prohibited by the FAR. This review of ITC acquisition practices (with the
             exception of the previously stated practice of obtaining the lowest price and not
             using available bulk funding methods) revealed that prescribed FAR acquisition
             procedures were consistently followed. However, in those areas where discretion
             is permitted; e.g., the number and level of approvals, review steps and control
             points, no notable examples of streamlining leading to increased efficiency or
             effectiveness were found.

      Of the five baseline best practices utilized in the review of ITC Purchase Card
      acquisitions, only one, high percentage of Micro-Purchases made with the Purchase Card,
      was evident throughout the Commission’s Purchase Card program; while four (bulk
      funding, efficiency, reasonable price, and empowerment) were evident on a less than
      Commission-wide basis; specifically,

      •      the best practice of bulk funding was limited to the Law Library.

      •      the best practice of Efficiency and Effectiveness through streamlining was limited
             to one element of the Main Library's process -- in Exhibit 3, the elimination of
             formal procurement requests in step A and supervisory approvals in step B;

      •      the best practice of using Reasonable Price to eliminate the administrative cost of
             obtaining quotations was not found to be consistently applied throughout the
             Commission and constitutes one of the significant areas for the Commission to
             improve upon; and

      •      The best practice of empowerment was evident in limited measure in the Main
             Library which eliminated the requirement for supervisory approvals of their
             informal purchase requisition.

      A review of key Purchase Card practices in four other federal agencies (summarized in
      the Appendix) revealed the following with respect to best practices:

      •      consistently high use of the Purchase Card as a vehicle for purchasing and paying
             for Micro-Purchases;




                                             26
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


        •      all of the four agencies reviewed utilized bulk funding as a means of streamlining
               their Purchase Card acquisition process;

        •      streamlining and efficiency were most evident in simplified reconciliation
               processes that eliminated the requirement for support documentation to
               accompany Statement of Account approval; and

        •      empowerment was best reflected in one agency's process. Here Purchase
               Cardholders were encouraged to use their Purchase Card in a manner consistent
               with personal credit use. In fact, the only approval in the entire process was the
               approval official's signature on the Cardholder’s Statement of Account.

        Various procedures appear unnecessary and create considerable inefficiencies and
        paperwork. Certain forms, for example Form 51, are used to document upfront approvals
        of purchases by Cardholders. In addition, “Records of Telephone Credit Card Orders” are
        completed. These type of procedures should be eliminated in order to gain efficiencies in
        this process.

        Also, Purchase Card transactions are entered into SACONS. This procedure should be
        examined for consideration of eliminating the requirements of doing so. Whether or not
        management determines it necessary to record Purchase Card transactions into such
        systems, requirements of the minimum data to be retained by the Cardholder and the data
        to be placed onto software systems (such as the data indicated on the SACONS Credit
        Card Authorization form) should be established. Such procedures should ensure a
        consistency of documentation standards are applied for each procurement, with the ability
        to examine such documentation to subsequently validate the propriety of the procurement
        transactions.


 OBJECTIVE C

 Evaluate the Commission’s process for Purchase Card reconciliation to determine whether:

 A.     the Statement of Account reconciliation process contains adequate pre-payment approval
        controls and

 B.     There is an established Statement of Account review schedule that provides for timely
        reconciliation on monthly statements and that reviews are completed on time.




                                               27
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


 FINDINGS

 A.     Pre-payment Controls. ITC follows the RMBCS requirement for supervisory approval of
        each statement sent to the Finance Division for payment. This is required and is an
        indication of an appropriate level of control. However, ITC's practice of Cardholders
        attaching detailed documentation (telephone logs, receipts, packing slips, invoices) to
        each month's Statement of Account is time consuming and contrary to the empowerment
        and efficiency and effective mandates of acquisition streamlining legislation. Procedures
        should require only that the approved Statement of Account be submitted to the Finance
        Division for payment.

 B.     Statement of Account Review Schedule. ITC Purchase Card Directive 3603, along with
        current practices, has established a Statement of Account review schedule as follows:

        i)     ITC Purchase Card statements are printed by RMBCS on the 22nd of each month;

        ii)    SOAs are received by ITC employees by the 29th. OFB simultaneously receives
               invoice without the SOAs which starts the 30-day clock for prompt payment
               compliance;

        iii)   employees have three days to reconcile and submit SOAs with required
               documentation to Approving Officials; and

        iv)    approving officials have four days to review, sign, and submit SOAs to the
               Finance Division.

        However, submission of approved SOAs to the Finance Division are often close to the 30
        day deadline for prompt payment, which forces Finance to become proactive in obtaining
        them in order to meet the prompt payment deadline. SOAs are not date stamped when
        received by Finance. Office of Finance and Budget should note the date that SOAs are
        received from approving officials.


 OBJECTIVE D

 Determine if procedures and practices for disputing questioned Card purchases are in compliance
 with the terms and conditions of the Purchase Card contract with RMBCS.




                                               28
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


 FINDINGS

 When a questionable purchase or transaction appears on a Cardholder’s Statement of Account,
 RMBCS procedures call for a dispute form entitled “Statement of Questioned Item” to be
 completed by the Cardholder and mailed to RMBCS within 60 days of the statement date. A
 copy of the form is also to be sent to the Commission’s Finance Division to ensure the amount of
 the disputed item is deducted from the payment to RMBCS.

 Very few disputed transactions have occurred at ITC. As supported by testing of transactions,
 Cardholders have completed the required RMBCS form for disputed transactions. Per discussion
 with Cardholders, they are aware of the RMBCS requirement to contact the vendor directly to
 rectify the dispute.

 Although a monthly report is received from RMBCS which lists the outstanding disputes, current
 policy does not require the Agency Program Coordinator (APC) to maintain past copies. From
 the 22 months reviewed, the APC had maintained 16 months of reports. From these, it was
 determined that there were at least a dozen disputed charges in fiscal year to date 1997, which
 have all been resolved. The APC indicated there has not been any disputed charges by the
 Commission as a result of intentional abuse of a Purchase Card. As of July 31, 1997, the
 Commission had one dispute (subsequently resolved) outstanding for an unidentified charge in
 the amount of $1,408.

 CONCLUSION

 Disputed transactions at the Commission have been handled in accordance with the RMBCS
 agreement. Based on the immaterial number of disputed transactions occurring, the Commission
 does not have evidence of abuse or mishandling of the Purchase Card.


 OBJECTIVES E and F

 Determine the number of late payments made to RMBCS and the related cost of these to the ITC.

 Determine whether and under what circumstances the Commission can receive rebates, the
 number of rebates received, and the cost saving attributable to these.




                                               29
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


 FINDINGS

 Twenty-two consecutive months of RMBCS payments (FY 1996 and 1997 through August)
 indicated only three late payments with a total of $13 in interest payments. At least two of the
 late payments were attributable to the government shutdown in early FY 1996. ITC has not
 received any rebates for payment of charges to RMBCS.

 CONCLUSIONS

 In theory, the Commission could receive rebates from RMBCS for receiving and paying invoices
 electronically and for averaging less than 54 days between the time a charge is posted and the
 date payment is received by RMBCS. However, the very low dollar level generated by ITC (due
 to its size, not to under-use of the Purchase Card) makes this impractical, if not impossible. To
 illustrate: ITC Purchase Card transactions for FY 1996 and 1997 to date total approximately
 $560,000. If electronic billings were received on a daily basis and payments made electronically
 on a next day basis, total rebates to ITC based on over $560,000 worth of purchases over nearly
 two years would total approximately $3,600 or about $165 per month.

 Another scenario assumes that SOAs are received by mail, reconciled and approved in seven
 days and paid by electronic bank draft on the 15th day after RMBCS statement cut-off date.
 Again, using the formula contained in RMBCS contract, this would yield ITC total rebates of
 approximately $725 or about $33 per month.


 OBJECTIVE G

 Evaluate Purchase Card use data and recommend improvements in Card distribution and use.

 FINDINGS

 Cardholder use was examined for the period of October 1995 through July 1997. For each
 Cardholder during the period, the total monthly charges (in both dollars and number of purchase
 transactions) were scheduled for analysis. (See Exhibit 5, “Cardholders Monthly Usage”.) The
 number of transactions done by the Planning and Procurement Division when compared to the
 entire Commission was approximately 10% for FY 1996 and under 20% for FY 1997 through
 July 31.




                                                30
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


 CONCLUSION

 Based on the percentage use of the Purchase Card by the contract specialists in PPD and the
 increased usage of the Purchase Card by other Commission holders, the distribution of Purchase
 Cards is appropriate and the selection of the Purchase Card as a procurement device is effective
 for the Commission.


 OBJECTIVE H

 Determine the extent to which Purchase Card use has led to administrative savings or other
 benefits.

 FINDINGS

 Administrative savings in FY 1997 attributable to Purchase Cards are nearly $50,000 (900
 transactions at $54 each). In addition, Purchase Cards are in large part responsible for ITC's
 being able to absorb the impact of staff reductions to its contract specialist staff. The latter
 savings are difficult, if not impossible, to calculate but could be as high as the total cost of
 salaries and fringe benefits attributable to the 5-1/2 full time employee equivalent loss in the
 1996 reduction in force.

 CONCLUSION

 By adhering to the best practice of making Purchase Cards the preferred method of acquiring and
 paying for goods and services at or below the Micro-Purchase threshold of $2,500, the
 Commission has increased Purchase Card utilization levels. The majority of future savings
 attributable to Purchase Card use will not only come from increased Card use, but also from
 increased efficiency of the overall process in which the Card is used.

 RECOMMENDATIONS

 We recommend that the Director of Administration:

        1)     develop a formal training policy which requires both:

               a)      prospective Cardholders and Approving Officials to receive formal
                       training prior to Card issuance, and




                                               31
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


             b)     non-procurement staff who use Purchase Cards to be trained on an on-
                    going basis to ensure current understanding of Micro-Purchase
                    regulations;

       2)    coordinate with the Office of Personnel to modify employee separation checklists
             to include termination of Purchase Card authority;

       3)    develop a policy to require, upon an Approving Official being discharged of his or
             her Approving Official responsibilities, the cancellation of the existing Approving
             Official’s authority and the delegation of that authority to a new Approving
             Official, if applicable;

       4)    take advantage of the point-of-sale mechanisms that are already built into the
             RMBCS process; e.g., use pre-designated codes to limit purchases at point of sale;

       5)    provide bulk funding for Purchase Card commitments by establishing budget
             object classes for each Cardholder’s needs;

       6)    eliminate forms which are used to document approvals for procurements within
             the authority of a Cardholder;

       7)    eliminate where possible and otherwise minimize requirements for recording data
             into the procurement system;

       8)    perform periodic validations of the performance of the Cardholder and of
             Purchase Card transactions;

       9)    eliminate all requirements for attaching supporting documentation to the Finance
             Division; and

       10)   instruct PPD staff to maintain Purchase Card reports consistent with requirements
             of the National Archives Records Retention Schedule.

 See Exhibit 4, “Proposed Stages”, depicting a recommended flow for Micro-Purchase
 transactions through the use of a Purchase Card.




                                             32
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter One


 COMMISSION COMMENTS

 The Director of Administration generally agreed with recommendations 1 through 3 and 7
 through 9. He will incorporate the necessary language in their procedures manuals to implement
 these recommendations.

 Recommendation 6 was generally agreed to with some reservations.

 The response for Recommendation 6, eliminating forms which are used to document approvals,
 indicated that PPD will not eliminate paperwork deemed necessary. This response could be
 construed as agreeable if paperwork deemed necessary does not include paperwork documenting
 approvals for Purchase Cardholders performing Micro-Purchases. Otherwise, the paperwork
 deemed necessary would need to be examined to ensure it meets the current FAR requirement
 [FAR Part 1.102-4(b)] of “delegating the authority to make decisions to the lowest level within
 the System” (i.e., the Commission.)




                                               33
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two


                      CHAPTER TWO: MICRO-PURCHASES

 Following are the findings, conclusions, and recommendations for strengthening ITC’s policies,
 procedures, and practices for making Micro-Purchases that utilize methods other than the
 Governmentwide Purchase Card. Findings are presented as organized by objectives listed on
 page 7.

 OBJECTIVE A

 Determine whether current Commission policies, procedures, and practices take advantage of
 best practices for Micro-Purchases. Specifically:

        A.     determine the extent to which the best practices of ascertaining price
               reasonableness have replaced the practice of obtaining multiple quotations;

        B.     determine the practice for requesting Micro-Purchases and evaluate the efficiency
               of the process; and

        C.     determine the primary methods used to procure Micro-Purchases.

 FINDINGS

 ITC’s Micro-Purchase acquisitions are made in accordance with the USITC Directive 3601.1, the
 Commission’s Contracting and Procurement Policies and Procedures, and the FAR. Exhibit 6,
 the “ITC Micro-Purchase and Small Purchase Acquisition Process," is a simple flowchart of the
 Commission’s current practices for making Micro-Purchases utilizing Purchase Orders (POs),
 Blanket Purchase Agreements (BPAs) and similar methods other than Purchase Cards. A simple
 comparison of the process described in Exhibit 6 with the Purchase Card process outlined in
 Exhibit 3, the ITC Purchase Card Acquisition Process, reveals the same labor-intensive process,
 characterized by multiple approvals, usually reserved for higher value, formally competed
 procurements.

 The process depicted in Exhibit 6 is used throughout the Commission except in the Main Library
 and the Law Library. The Libraries’ variations of this process, displaying an adoption of limited
 but noteworthy acquisition streamlining measures, are documented in Exhibit 7, the “ITC
 Libraries' Micro-Purchase and Small Purchase Acquisition Process.”

 Each of the ten steps depicted in ITC's Micro-Purchase Acquisition Process (Exhibit 6) is
 outlined and described briefly below. Variations peculiar to each of the Libraries’ practices are
 noted.



                                                34
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two



      A.   Requisition Documentation. Micro-Purchases are initiated by preparing a formal
           procurement requisition (ITC internal Form 51,) for needed goods and services.
           (Neither the Main Library nor the Law Library use a Form 51. It is replaced by
           the use of the ITC Form 347, a SACONS generated purchase order form entitled
           “Order For Supplies or Services.” Instances where an ITC employee other than
           the Main Library's Librarian is requesting library material, the requisition need not
           be formally documented in a Form 51; an e-mail or an informal memo can serve
           as the requisition document.)

      B.   Approval and Commitment. The Requester obtains the required approvals. The
           Form 51 is required to be signed by authority of the Requester’s Division Chief
           and Office Director. In addition to the two approvals, the Requisition also needs
           to be approved by the authority of the CCM; i.e., the person responsible for
           committing the funds from the cost center. (Since the Libraries are not necessarily
           using Form 51s, the Libraries eliminate the requirement of Requisition Form
           approval. The Libraries use the SACONS Order For Supplies or Services to
           document the approval of the CCM.)

      C.   Procurement Review. Completed requisitions are screened by contract specialist
           staff for completeness and proper approvals prior to submitting the requisition to
           the Budget Division for funding the commitment. (The Main Library and Law
           Library submit completed Orders For Supplies or Services to contract specialists
           for review prior to acquisition. The acquisition is then performed by Library
           staff.)

      D.   Commitment Funding Approval. The Budget Division reviews the requisition to
           check for authorized signatures and proper accounting classification prior to
           funding the commitment. (The Law Library skips this step as a result of bulk
           funding having been established. The Main Library submits the approved Order
           For Supplies or Services to the Budget Division for funding the commitment prior
           to submitting the Order For Supplies or Services to contract specialists for
           Procurement’s review noted in step C, above.)

      E.   Procurement Assignment. Requisitions for which funds have been committed are
           returned to PPD for review and assignment to one of the contract specialist staff.
           (This step does not apply to the Main or Law Library.)




                                            35
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two


        F.     Procurement Processing-System Award Form.           Contract specialist staff
               responsible for making the acquisition enter descriptive data and produce a
               SACONS Order For Supplies or Services (ITC Form 347). (This step is
               performed by the Librarians in the Main or Law Library as described in step A,
               above.)

        G.     Obligation and Award. Except for the Libraries, all non-Purchase Card Micro-
               Purchase obligations and awards are made by contract specialist staff. (The
               Librarians from both Libraries make their own obligations and awards utilizing
               the Order For Supplies or Services which they generated and have had approved
               by both their respective CCM and a contract specialist.)

        H.     Receipt. Supplies and services are received and examined to ensure that they
               conform to specifications. Procurement requisitions and/or Orders For Supplies
               or Services are noted and controlled items are inventoried. (Both Libraries follow
               this process.)

        I.     Invoice Approval. Vendor invoices are submitted by the vendor to the Finance
               Division which forwards them to the requester for review and certification that
               goods or services received were in accordance with specifications. (Both
               Libraries follow this process.)

        J.     Payment. Approved invoices are returned to the Finance Division for payment in
               accordance with the 30-day prompt payment requirements. (Both Libraries follow
               this process.)

 These ten functions, documented in Exhibit 6, provide the framework for assessing the extent to
 which ITC has incorporated the following best practices into its policies, procedures, and
 practices.

 FINDINGS

                     FINDINGS: MICRO-PURCHASE BEST PRACTICES

 In order to determine whether ITC’s procedures and practices for Micro-Purchases take
 advantage of best practices, each step of the ten step process documented in Exhibit 6 was
 examined for evidence of four identified key best practices that have emerged from FASA and
 other streamlining legislation and which are now evident in other agencies’ procurement systems.
 These four are: bulk funding, determination of Reasonable Price, Empowerment, and Efficiency
 and Effectiveness; each is described briefly as follows:



                                               36
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two


      A.   Bulk Funding. Bulk funding is a funding mechanism, whereby the fiscal
           accounting office obligates a specified lump sum of funds that are reserved for a
           specific time-frame and purpose. Bulk funding is a best practice because it
           eliminates the need to obtain individual obligation authority on each purchase
           document.

           FAR Part 13.104(b)(4) states that “contracting officers shall use bulk funding to
           the maximum extent practicable… particularly if numerous purchases using the
           same type of funds are to be made during a given period”.

           Within the ITC, only the Law Library uses bulk funding to obligate funds for its
           Micro-Purchase acquisitions. Use of this best practice resulted in a streamlined
           Law Library Micro-Purchase acquisition process which eliminates three steps
           from the ten step process noted in Exhibit 6. Streamlining due to bulk funding
           also eliminates step D (Commitment Funding Approval) from the Micro-Purchase
           acquisition process when Orders For Supplies or Services are used.

      B.   Reasonable Price. Reasonable price, when used in conjunction with the
           acquisition of goods and services at or below the Micro-Purchase threshold,
           usually refers to a determination made on the basis of a buyer’s general
           experience, their recent acquisition of the same or similar item, or (when purchase
           is from an established GSA Federal Supply Schedule/Vendor) a price that has
           been pre-negotiated by the government.

           FAR Part 13.202(a)(2) permits Micro-Purchase buyers to make an award without
           the solicitation of competitive quotes when the buyer considers the price to be
           reasonable. Because the administrative cost of verifying cost reasonableness and
           obtaining competitive quotes often offsets any potential savings, FAR in essence,
           establishes a presumption of reasonable price in the Micro-Purchase environment
           unless the buyer has information to indicate that the asking price may not be
           reasonable. In these instances, more formal price negotiation methods, such as
           those prescribed in FAR Part 15 may need to be pursued.

           Interviews with staff throughout ITC revealed a reluctance to exercise their
           judgment in determining whether prices were reasonable. In some instances, three
           quotations were obtained for even low-end, Micro-Purchase buys.

           The practice of obtaining the lowest price to the government is well entrenched
           and difficult to break even in those instances where the standard prescribed by the
           FAR is reasonable price and not lowest price.



                                           37
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two


      C.   Efficiency and Effectiveness.        Efficiency and effectiveness involves the
           elimination of unnecessary or duplicative review or approvals in order to deliver
           goods and services on a timely, best value basis without sacrificing quality and
           while maintaining the public’s trust.

           The FAR indicates that efficiency and effectiveness can be achieved through both
           procedure simplification and increased resourcefulness of the government’s
           acquisition workforce. FAR Part 13.002(c) states that one of the purposes of the
           new Far Part 13, Simplified Acquisition Procedures, is to promote efficiency and
           economy in contracting through prescribed simplified procedures. In addition,
           FAR Part 1.102(d) encourages persons responsible for the acquisition of goods
           and services to be resourceful and exercise initiative in the development of
           strategies, policies, and procedures that are in the best interest of the government
           as long as these strategies, policies, and procedures do not violate the FAR or
           relevant case or statutory law.

           This Chapter's findings with respect to efficiency and effectiveness parallel those
           identified in Chapter One; that is, in those areas where discretion either is or
           should be permitted; e.g., the number and level of approvals needed or the
           elimination of review steps or control points, the only notable examples of
           streamlining leading to increased procurement system efficiency and effectiveness
           were found in the Libraries. Exhibit 7 documents a process whereby steps in the
           Micro-Purchase acquisition process have been eliminated, combined and/or
           reordered in order to increase efficiency and effectiveness of the process.

      D.   Empowerment. Empowerment refers to both the encouragement and the express
           permission given to the federal government’s acquisition workforce to exercise
           initiative and professional judgment in the performance of job-related tasks and
           responsibilities.




                                            38
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two


               Congress’ intent to empower the acquisition workforce is codified in the FAR.
               FAR Part 13.003(i)(4) states “contracting officers shall use innovative approaches,
               to the maximum extent practicable, in awarding contracts using simplified
               acquisition procedures”. FAR Part 1.102(d) empowers all members of the
               government’s Acquisition Team by stating that “in exercising initiative,
               government members of the Acquisition Team may assume if a specific strategy ,
               practice, policy or procedure is in the best interest of the government and is not
               addressed in the FAR nor prohibited by law (statute or case law), executive order,
               or other regulation, that the strategy, practice, policy or procedure is a permissible
               exercise of authority.”

               In Procurement, examples of contract specialists having accepted empowerment
               were observed. Senior contract specialists routinely use the best practice of
               Reasonable Price or best value to the government, and competition (obtaining
               quotes) is avoided whenever reasonable price can be determined based on their
               professional judgment. Alternatively, best value is used to negotiate additional
               service and/or features.

               In addition, the Micro-Purchasing processes followed in the Libraries show
               significant, although limited, evidence of empowerment. For example, the Law
               Library requires only one approval for Micro-Purchases made with an Order For
               Supplies or Services. (Two approvals are required for Law Library Purchase Card
               purchases.)

              FINDINGS: PROCESS FOR REQUESTING MICRO-PURCHASES

 Excluding Purchase Card transactions, ITC’s Micro-Purchase acquisition process follows the
 Commission’s formal Contracting Procedures as outlined in Exhibit 6. With the exception of the
 two Libraries, this process does not vary significantly for procurements under $100,000.
 Specifically, Micro-Purchases are initiated by preparing USITC Form 51, obtaining the requested
 approval signatures, and submitting completed requisitions to Procurement. Procurement
 reviews and signs each requisition and forwards it to the Budget Division for certification of
 funds available. The Budget Division returns the requisition to the Chief, Office of Planning and
 Procurement for assignment to contract specialist staff for acquisition.

 The Libraries' processes for requesting/initiating Micro-Purchases vary from the above-described
 process as outlined in Exhibit 7. Key differences include: the Main Library uses e-mail in lieu
 of Form 51 to initiate a PO; POs are generated in the Libraries; approved by supervisors; and
 when bulk funding is not in place (Main Library), the PO becomes the Funds Commitment
 document and purchases are made by Library staff instead of contract specialist staff.



                                                39
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two


              FINDINGS: METHODS USED TO MAKE MICRO-PURCHASES

 Analysis of transaction data from SACONS reports indicates that ITC uses four principal
 methods for acquiring goods and services involving Micro-Purchases. These methods, stated as
 a percentage of total ITC Micro-Purchase transactions in FYs 1996 and 1997 (through July
 month end), include:

         Method                                      Transactions        % of Total

         Purchase Cards                                     1,314              76%
         Library Delivery and Purchase Orders                 142               8%
         Purchase Orders                                      128               8%
         Blanket Purchase Agreements                           88               5%
         Inter-Agency Agreements and Other                     31               2%
         Delivery Orders                                       21               1%
                                    Total                   1,724             100%

 As shown the four principal methods for acquiring goods and services at or below the Micro-
 Purchase threshold are Purchase Cards, Purchase Orders, Delivery Orders, and Blanket Purchase
 Agreements. Specifically:

        A.     Purchase Cards. In FYs 1996 and 1997, Purchase Card transactions at or below
               the Micro-Purchase threshold accounted for 1,314, or 76% of total ITC Micro-
               Purchases.

        B.     Purchase Orders. Purchase Orders (“POs”, done on ITC Form 347) are usually
               unilateral (one-party) documents. POs are the government's offer to buy at prices
               and under the terms and conditions stated. The administrative costs of using POs
               are usually greater than Purchase Cards and BPAs and they should only be used
               when needed.

        C.     Delivery Orders. Delivery Orders (also on ITC Form 347) are orders for goods,
               supplies, or services from GSA Federal Supply Schedules. Delivery Orders
               indicate use of FAR Part 8 priority and are an indication of a best practice for
               source of supply. However, the administrative costs of using Delivery Orders are
               usually greater than Purchase Cards and BPAs and they should only be used when
               needed.

               Of the 410 Micro-Purchase transactions not made with Purchase Cards, 291 were
               made with POs and Delivery Orders.



                                                40
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two



        D.     Blanket Purchase Agreements. BPAs allow named persons to place orders for
               certain items or classes of items by telephone call instead of by written purchase
               order. BPAs permit consolidated invoicing for purchases during a specified
               period. BPAs are not contracts but rather agreements for the convenience of both
               the government and the supplier. BPAs totaling 88 were identified in ITC's
               Micro-Purchase process.

 Since FAR establishes the Governmentwide Purchase Card as the primary vehicle for the
 acquisition and payment for Micro-Purchases, it could be argued that the “ideal” Micro-Purchase
 program would conduct all Micro-Purchase transactions with the Purchase Card. In testing this
 hypothesis it was determined that certain real-world conditions make this impractical if not
 impossible. These conditions, in descending order of significance are:

        A.     Some Vendors Do Not Accept Purchase Cards. While the common perception is
               that these are small “mom and pop” vendors, a sample of the Law Library’s 1997
               Purchase Orders for goods and services at or below the Micro-Purchase threshold
               level of $2,500 indicated that all five were used to purchase law journals from
               organizations that would not accept Purchase Cards. Even some government
               agencies refuse to honor the Purchase Card. (In one procurement example at ITC,
               the Smithsonian Institute refused to honor a Purchase Card presented by one of
               ITC’s Cardholders.)

        B.     Thirty-Day Delivery Requirement. Purchase Card purchases must be delivered in
               30 days from the time order is placed. When vendors cannot ensure timely
               delivery, employees are not authorized to make the purchase with the Purchase
               Cards, and must use other methods, usually a PO.

        C.     Type of Goods Or Services Being Purchased. The nature of some purchases,
               especially for services, is such that even though the dollar value is low, detailed
               specifications and delivery and payment schedules are needed to ensure the
               government receives exactly what it contracted for. These purchases require a
               more formal contracting method and POs are appropriately used in these
               instances. Analysis of sample purchases showed that ITC correctly used POs to
               purchase maintenance and training services below the Micro-Purchases threshold.




                                               41
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two


 CONCLUSIONS

 A.   ITC Policies and Procedures. The absence of streamlined acquisition policies together
      with the Commission’s outdated procurement policies form a significant deterrent to the
      implementation of certain best practices. The impact of these is mitigated in ITC’s PPD
      due in large part to the fact that professional contract specialist staff are required to be
      knowledgeable of regulation changes in their field of expertise. However, the impact of
      this finding on ITC’s program and services offices, where their awareness of changes in
      federal acquisition policy and procedures is dependent upon timely communication of
      these changes (in the form of agency policy and procedure issuances and training), is
      significantly greater. Program staff who rely on ITC Directive 3601.1 are relying on
      statements which, for example, still require competition from at least three sources for
      purchases under $2,500 and that purchases be made from established sources of supply,
      regardless of dollar amount.

 B.   Micro-Purchase Best Practices. Significant evidence of streamlining resulting from ITC's
      use of the best practice of bulk funding was not observed. However, examples of
      Empowerment and Efficiency and Effectiveness were found in this assessment of ITC’s
      non-Purchase Card, Micro-Purchase practices as outlined below.

      i)     Bulk Funding. The impact of bulk funding (as utilized by the Law Library) on
             Purchase Order processing was to eliminate step D from the acquisition process
             depicted in Exhibit 6.

      ii)    Empowerment. Empowerment of contract specialist staff has led to the consistent
             use of the best practice of reasonable price, as well as increased efficiency through
             the elimination of the practice of obtaining multiple quotations for Micro-
             Purchases. Empowerment of Library staff has led to creative changes and
             streamlining of Micro-Purchase processes using purchase orders.

      iii)   Efficiency and Effectiveness. Increased efficiency and effectiveness in the form
             of process streamlining were observed only in the Micro-Purchase processes used
             by the Libraries. This is not surprising because increased efficiency and
             effectiveness is almost always the result of employee initiative through
             empowerment.




                                              42
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two


      iv)    Reasonable Price. In general, contract specialist staff are adhering to this best
             practice, while some staff outside Procurement, according to those interviewed,
             indicate that they either choose or are directed by their superiors to create
             competition in those instances where multiple vendors can meet the requisition
             need. However, documentation maintained in the Procurement files had no
             indications of multiple source quotations being obtained.

      The discrepancies in best practice application are an issue of awareness and can be
      resolved through training. As continued government cost-cutting impacts government
      agencies' administrative staff, the burden for the acquisition of Micro-Purchase goods and
      services will continue to shift to program staff. As this occurs, an on-going program of
      formal training will prove to be critical for non-PPD staff with procurement authority. Be
      assured that agencies' positive results with Purchase Cards and the new $2,500 Micro-
      Purchase threshold will ultimately lead to a rise in that threshold. Any formal training
      program devised should include the frequency of the training, the level of the training
      dependent upon authority, and the accepted means of receiving that training. Getting
      revised policies and procedures in the hands of non-procurement, program staff will
      resolve most of the disparity noted.

 C.   Process for Requesting Micro-Purchases. Outside of the Library areas, the process for
      requesting non-Purchase Card Micro-Purchases is overly focused on process and control
      points and would benefit from streamlining. However, sampling revealed that methods
      used to make Micro-Purchases were consistently appropriate.

 D.   Methods Used To Make Micro-Purchases. As indicated, ITC currently uses four primary
      tools for making Micro-Purchases: Purchase Cards, Purchase Orders, Delivery Orders,
      and Blanket Purchase Agreements. Purchase Card transactions account for 76% of the
      total Micro-Purchases and most of the remainder (14%) are made with Purchase Orders.

      If bulk funding were established, designated employees would be permitted to make
      requests directly to Procurement without supervisory approvals and without the Budget
      Division approval and coding. The need for determining reasonable price as opposed to
      obtaining multiple quotes in the acquisition of Micro-Purchases should be covered in the
      training provided.




                                             43
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two


 OBJECTIVE B

 Through a sample selection of Micro-Purchases made from October 1, 1995, through July 31,
 1997, evaluate whether:

 A.     the procurement method chosen was the most appropriate one; and

 B.     for the procurement method chosen, the process was completed in the most efficient
        manner.

 FINDINGS

 The 29 Micro-Purchase procurements sampled are distributed and summarized as follows:

                                                                                     Sampled
                                 Payment Vehicle             Acquisition Type        Number

        Main Library             Purchase Order              library materials             7
        Law Library              Purchase Order              library materials             5
        Non-Library Areas        BPA                         services                      5
        Non-Library Areas        Purchase Orders             services                      7
        Non-Library Areas        BPA                         ongoing purchases
                                                             of goods or materials        3
        Non-Library Areas        Purchase Orders             goods or materials           2
                                                                          Total          29

 Of the procurements sampled, only two involved the purchase of goods or materials which may
 have been more suitable for payment using the Governmentwide Purchase Card--the two
 procurements using Purchase Orders in non-library areas. However, one of these purchases was
 made from an existing provider of design services. In this case, the Purchase Card was most
 likely not an acceptable means of payment for that particular vendor. The other sampled
 purchase from a non-library ITC area, although in FY 1997 was a Micro-Purchase, would
 normally be in excess of the Micro-Purchase threshold and will be examined in detail during the
 Purchases greater than $2,500, less than $100,000 examination.




                                               44
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two


 CONCLUSIONS

 From the results of the sample testing, the procurement method chosen was most suitable for the
 procurement. In each sampled purchase from the Libraries, the Purchase Card was not an
 available choice for the vendor. For acquisitions from Non-Library areas, the acquisition was for
 services or goods that were better facilitated by a PO or a BPA respectively. This conclusion
 reinforces the Finding from Chapter One concerning the Commission’s best practice of utilizing
 the Purchase Card in Micro-Purchase acquisitions as much as possible.

 For the acquisitions sampled from the Libraries, the procurement process was reflective of the
 process depicted in Exhibit 6. The Libraries process their requisitions for library materials with a
 more streamlined and efficient process than that which exists elsewhere in the Commission.
 However, even further streamlining can be added through the use of bulk funding for the Main
 Library and the elimination of Procurement review.

 The process for the remaining Commission procurements did not have many examples of best
 practices in effect: many requisition approvals were needed; Procurement Review and Individual
 Funds Commitment were necessary; and Procurement acquisition was performed. Requisition
 forms were accompanied by Orders For Supplies or Services. (See recommendation in Objective
 C.)


 OBJECTIVE C

 Identify ways in which the Commission's process for making Micro-Purchases could be further
 streamlined.

 FINDINGS

 Although only 16% of the Commission’s contracting dollars were spent on Micro-Purchases,
 more than 80% of total procurement actions (over 900 in FY 1997) were transacted under its
 Micro-Purchase authority. Micro-purchasing, therefore, is a must target for assessing additional
 streamlining and other cost-saving measures.

 As previously reported, ITC's high use of the Governmentwide Purchase Card has yielded
 significant time and cost savings. However, because of the heavy emphasis on review and
 approval check points in the current process, significant opportunities for additional streamlining
 and related cost-savings remain.




                                                 45
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two


 CONCLUSIONS

 Any approach to streamlining must consider potential improvement opportunities available in
 each of the following components of the overall "acquisition system". In light of previous
 findings concerning the Commission's acquisition policy void, outdated procedures, and control-
 driven process, streamlining opportunities should be available in each of those areas.

        A.     Policies and Procedures. Critical to streamlining is an understanding that
               making changes to ITC's current process goes far beyond simple implementation
               of FASA-mandated, FAR-regulated, changes to existing procurement law. It
               requires changes in the way government finance and procurement staff have
               traditionally conducted their business. For this reason, policies that encourage
               initiative and which demand empowerment must provide the foundation for any
               institutionalized change. Operating procedures which do anything less than
               reinforce initiative and employee empowerment will eventually undermine any
               attempt to streamline.

        B.     Acquisition Process. As stated previously, in those areas where discretion either
               is or should be permitted, (e.g., the number and level of approvals needed or the
               elimination of review steps or control points), the only notable examples of
               streamlining leading to increased procurement system efficiency and effectiveness
               were found in the Libraries.

        C.     Employee Acquisition Roles. Only the Micro-Purchasing processes followed in
               the Libraries show significant, although limited, evidence of empowerment.
               Others are limiting their empowerment due to current policies and procedures.

        D.     Acquisition Methods. Currently all Micro-Purchases are made with either the
               Purchase Card, Purchase Orders, Delivery Orders, or Blanket Purchase
               Agreements. Purchase Cards are the preferred method and ITC seems to have
               done an excellent job of performing eligible purchases with the Purchase Card.
               With respect to ITC's use of Purchase Orders and BPAs, the results of the Micro-
               Purchase sample review indicate that these are being utilized appropriately.
               However, there may be other methods which (assuming the elimination of current
               review and approval steps) could significantly facilitate ITC's acquisition of non-
               Purchase Card acquisitions. These include:




                                               46
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two


             i)     VISA Checks. Though not currently available on a government-wide
                    basis, GSA and RMBCS are currently pilot testing these in a number of
                    agencies. Pilot tests are scheduled for conclusion at the end of the current
                    RMBCS contract in November 1998. It is believed that VISA checks,
                    keyed to Purchase Card accounts will be available to all agencies as part of
                    the new Purchase Card contracts beginning in late November 1998. The
                    use of VISA checks would contribute significantly to the recommended
                    goal of decentralizing Micro-Purchases; especially in view of the fact that
                    the principal reason for ITC's use of POs for Micro-Purchases is non-
                    acceptance of the Purchase Card.

             ii)    Standardized Form 44. The Standardized Form 44 is a multi-purpose
                    form that provides in one document: a purchase order; a receiving report;
                    a vendor's invoice; and a payment voucher. The form is used for on-the-
                    spot, over-the-counter purchases of supplies and personal services by
                    authorized purchasers when the Purchase Card is not accepted. Because
                    most Micro-Purchases that require POs are not for over-the-counter goods
                    and services, but for mail ordered goods (often subscriptions or Law
                    Journals) the potential impact of the Standardized Form 44 could be
                    minimal.

             iii)   Technology. ITC is encouraged to examine its use of technology as a
                    method for streamlining the procurement request process and eliminating
                    unnecessary paper documentation. Replacing the Form 51, Purchase
                    Requisition, with an informal e-mail request should be considered. In
                    addition, future system enhancements should aim at eliminating
                    redundancy, such as the use of both hard-copy (Form 51) and computer
                    generated forms (Order For Supplies or Services Form) for the same
                    transaction.

      ITC’s goals for streamlining Micro-Purchases should include bulk funding for all budget
      categories against which Micro-Purchases for supplies and services are typically made.




                                             47
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Two


 RECOMMENDATIONS

 We recommend that the Director of Administration:

        11)    develop an on-going program for training on Micro-Purchases for its non-
               Procurement acquisition staff;

        12)    eliminate use of forms for Micro-Purchases;

        13)    permit Purchase Cardholders to make Micro-Purchases directly; and

        14)    obtain VISA checks (when available) to use for making Micro-Purchases when
               the Purchase Card is not accepted.

 COMMISSION COMMENTS

 The Director of Administration generally agreed with recommendations 11, 12, and 14. He
 indicated that PPD is in the process of implementing a new software program which is expected
 to streamline procedures.

 The Director objected to Recommendation 13. He stated that permitting employees to self-
 initiate purchase orders would permit them to become unwarranted contracting officers. Our
 recommendation is limited to Micro-Purchases by Purchase Cardholders who are already familiar
 with the micro-purchasing requirements. These Cardholders do have limited warrants.




                                              48
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


                      CHAPTER THREE: SMALL PURCHASES

 The following are the findings, conclusions, and recommendations for strengthening ITC's
 policies, procedures, and practices for making Small Purchases. Small Purchases for purposes of
 this report are defined as those acquisitions which exceed the Micro-Purchase threshold of
 $2,500 but which do not exceed the simplified acquisition threshold of $100,000.


 OBJECTIVE A

 Determine whether current Commission policies, procedures, and practices take advantage of
 "best practices" for Small Purchases (those between $2,500 and up to and including $100,000;
 namely:

 A.     determine the extent to which the practices for obtaining competition are being utilized,
        including number of quotes required versus number obtained and minimum
        documentation requirements versus documentation actually prepared;

 B.     determine the practice for requesting Small Purchases and evaluate the efficiency and
        effectiveness of the process; and

 C.     determine the primary methods used to procure Small Purchases.

 FINDINGS

 ITC's Small Purchases are made in accordance with USITC Directive 3601.1, the Commission's
 Contracting and Procurement Policies and Procedures, and the FAR. Exhibit 6, the ITC
 Libraries' Micro-Purchase And Small Purchase Acquisition Process, is a simple flowchart of the
 Commission's current practices for making Small Purchases. While the higher dollar value of
 Small Purchases (approximately $22,500 versus $449 for Micro-Purchases) justifies most of the
 steps of this process, the process described in Exhibit 6 is virtually identical to the processes
 employed for Micro-Purchases and Purchase Cards. The same processes for such disparities in
 dollar amounts further illustrates the opportunities for streamlining in the Micro-Purchase and
 Purchase Card processes.

 The process shown in Exhibit 6 is used throughout the Commission with the exception of both
 the Main and Law Libraries (see Exhibit 7). Note that the two libraries are authorized to function
 as the buying office (that is Library staff rather than Procurement Staff order from the vendor) for
 certain types of transactions.




                                                 49
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


 Each of the ten steps depicted in ITC Libraries' Micro-Purchase And Small Purchase Acquisition
 Process (Exhibit 6) is outlined and described briefly below. Variations peculiar to each of the
 Library practices (Exhibit 7) are noted.

        A.     Requisition Documentation. Small Purchases are initiated by preparing a formal
               procurement requisition (ITC internal Form 51, "Requisition for Supplies or
               Services") for needed goods and services. (Neither the Main Library nor the Law
               Library use a Form 51. It is replaced by the use of the ITC Form 347, a
               “SACONS” generated purchase order form entitled “Order For Supplies or
               Services”. In those instances where an ITC employee other than the Main
               Library's Librarian is requesting library material, the requisition need not be
               formally documented in a Form 51; an e-mail or an informal memo can serve as
               the requisition document.)

        B.     Approval and Commitment. The Requester obtains the required approvals. The
               Form 51 is required to be signed by authority of the Requester’s Division Chief
               and Office Director. In addition to the two approvals, the Requisition also needs
               to be approved by the authority of the CCM. (Since the Libraries are not
               necessarily using Form 51s, the Libraries eliminate the requirement of Requisition
               Form approval. The Libraries use the SACONS Order For Supplies or Services to
               document the approval of the CCM.)

        C.     Procurement Review. Completed requisitions are screened by contract specialist
               staff for completeness and proper approvals prior to submitting the requisition to
               the Budget Division for funding the commitment. (The Main Library and Law
               Library submit completed Order For Supplies or Services to contract specialists
               for review prior to acquisition. The acquisition is then performed by Library
               staff.)

        D.     Commitment Funding Approval. The Budget Division reviews the requisition to
               check for authorized signatures and proper accounting classification prior to
               funding the commitment. (The Law Library skips this step as a result of bulk
               funding having been established. The Main Library submits the approved Order
               For Supplies or Services to the Budget Division for funding the commitment prior
               to submitting the Order to Procurement for Procurement’s review noted in step C,
               above.)

        E.     Procurement Assignment. Requisitions for which commitments have been funded
               are returned to PPD for review and assignment to appropriate buyer. (This step
               does not apply to the Main or Law Library.)



                                               50
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


        F.     Procurement Processing-System Award Form. Procurement staff responsible for
               making the acquisition enter descriptive data and produce a SACONS Order for
               Supplies or Services. (This step is performed by the Librarians in the Main or
               Law Library as described in step A, above.)

        G.     Obligation and Award. Except for the Libraries, all Small Purchase obligations
               and awards are made by contract specialist staff. (The Librarians from both
               Libraries make their own obligations and awards utilizing the Order For Supplies
               or Services which they generated and have had approved by both their respective
               cost center manager and a contract specialist.)

        H.     Receipt. Supplies and services are received and examined to ensure that they
               conform to specifications. Procurement requisitions and/or Order For Supplies or
               Services are noted and controlled items are inventoried. (Both Libraries follow
               this process.)

        I.     Invoice Approval. Vendor invoices are submitted to the Finance Division which
               forwards them to the requester for review and certification that goods or services
               received were in accordance with specifications. (Both Libraries follow this
               process.)

        J.     Payment. Approved invoices are returned to the Finance Division for payment in
               accordance with the 30-day prompt payment requirements. (Both Libraries follow
               this process.)

 These ten functions, documented in Exhibit 6, provide the framework for assessing the extent to
 which ITC has incorporated the following best practices into its policies, procedures, and
 practices.

 FINDINGS

                     FINDINGS: SMALL PURCHASE BEST PRACTICES

 In order to determine whether ITC's procedures and practices for Small Purchases take advantage
 of best practices, each step of the process documented in Exhibit 6 was examined for evidence of
 best practices that have emerged from FASA and other recent streamlining legislation. These
 best practices can be observed in many agencies' procurement systems and are well documented
 in the FAR. The four Small Purchase best practices considered are:

        A.     Use of Required Sources. FAR Part 19 requires the government to provide
               maximum practicable opportunities to small disadvantaged and women-owned


                                               51
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


           business concerns. FAR Part 13.003(a) requires that Simplified Acquisitions
           Procedures be used for the purchase of all goods and services under the simple
           acquisition threshold (i.e., Small Purchases) unless the requirements can be met
           by using required resources of supply under FAR Part 8. These include but are
           not limited to: excess from other agencies, Federal Prison Industries, Committee
           for Purchase from People Who are Blind, Federal Supply Schedules, etc.

           Interviews with contract specialist staff indicated that these requirements were
           extensively followed. Review of Procurement files for a 10% sample of Small
           Purchase transactions partially confirmed this perception. Of the 32 Small
           Purchase transactions reviewed 10 were sourced from Federal Supply Schedule
           Vendors and 6 were sourced from other federal agencies. (One inter-agency
           agreement for services was completed in three working days from date of
           requisition requesting services to the date agreement was signed by both parties.)

      B.   Use of Simplified Acquisition Methods. FAR Parts 13.303, .305 and .302
           establish Blanket Purchase Agreements, Imprest Funds, and Purchase Orders,
           respectively, as preferred simplified acquisition procurement methods for making
           purchases under the Simplified Acquisition Threshold.

           Of the 325 Small Purchase transactions completed by ITC in FY 1996 and 1997,
           41% were made by preferred simplified acquisition procurement methods as
           dictated by FAR Part 13. In addition, the remaining 59% were made using FAR
           Part 8 higher priority order best practice.

      C.   Use of Simplified Acquisition Practices. ITC’s Small Purchase practices are
           required to adhere to the Simplified Acquisition Procedures established in FAR
           Part 13. FAR Part 13.104 requires contracting officers to “promote competition to
           the maximum extent practicable to obtain supplies and services from the source
           whose offer is most advantageous to the government”. Key indicators of best
           practices include:




                                           52
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


           i)   Simplified Competition. FAR Part 13.106-1(c)(1)(i) through Part 13.106-
                1(c)(1)(iii) provide for the solicitation of informal or oral quotations for
                acquisitions not exceeding $25,000 where FACNET is not practicable or
                cost-effective. Far Part 13.104 provides that the solicitation of at least
                three sources will generally be considered to promote competition to the
                maximum extent practicable. According to Far Part 5, Open Market
                purchases over $10,000 but not exceeding $25,000 are to be advertised;
                i.e., displayed in a public place, including electronic bulletin board, for at
                least 10 days. Purchases between $25,000 and $100,000 must be
                advertised for at least 30 days (open market). Three quotations are
                generally sufficient to be considered maximum practicable competition.

                Interviews with contract specialist staff indicate that staff adhere to these
                practices. Results of sampling Small Purchase documentation showed that
                the minimum number of quotes were consistently obtained except in the
                use of BPAs. From the 32 Small Purchase transactions reviewed, seven
                were performed using BPAs where there was no indication in the
                Procurement files as to whether competition information was obtained,
                whether the vendors were on the Federal Supply Schedule, or if there was
                justification for using an open market sole source. FAR Part 13.303-5(c)
                states that the existence of a BPA does not justify purchasing from only
                one source or avoiding small business set-asides.

                In addition, since the date of fieldwork in August of 1997, FAR has
                revised Part 13 concerning the use of BPAs. At the time of fieldwork, No
                General Counsel opinion had been requested or rendered concerning an
                interpretation of FAR’s competition requirements for establishing BPAs.
                However, the current FAR version updated through December 1997
                provides wording which supports the need for obtaining competition upon
                the establishment of a BPA. Part 13.303-5(d) states, for a particular
                purchase greater than the Micro-Purchase threshold, if there is an
                insufficient number of BPAs to ensure maximum practicable competition,
                the contracting officer shall solicit quotations from other sources and, if
                practical, establish other BPAs.




                                         53
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


                  Aside from the seven BPAs in the sample noted above, all other instances
                  of sole source for competition requirements were appropriately
                  documented and no incidences of over-solicitation were noted. In
                  addition, documentation of competition was appropriate. In one instance
                  documentation was not in the official procurement file, but was found in
                  the personal procurement file of the requesting/initiating staff person.

           ii)    Electronic Commerce. FAR Part 13.003(f) encourages the use of
                  electronic (paperless) purchasing techniques to the maximum extent
                  practicable. This includes FACNET, Internet, GSA Advantage System,
                  and even facsimile machines. FACNET is discussed separately under
                  Objective D.

                  Generally, findings indicated that ITC tends to under-utilize electronic
                  commerce for three reasons. Some users said GSA Advantage was
                  difficult to access, requiring the user to shut down one operating system
                  prior to accessing the other. It was also indicated that this system was
                  slow and that hard copy Federal Supply Schedules could be utilized more
                  quickly. Some users in the Commission are concerned about security of
                  Purchase Card numbers in electronic commerce.

           iii)   Bulk Funding. FAR Part 13.101(b)(4) advocates bulk funding when there
                  are numerous purchases using the same type of funds during a given
                  period. Only the Law Library regularly utilizes this best practice.

           iv)    Best Value. FAR Part 13.106-1(a)(2) encourages contracting officers to
                  use “best value” in determining whose offer is the most advantageous to
                  the government. Factors to be considered in determining “best value”
                  include: (1) price alone (for simple acquisition of goods and services) and
                  (2) price and other factors for more complex procurements. Other factors
                  included quality, past performance, and incentives to buy such as
                  discounts, free deliveries, upgrades, and services such as training or free
                  set-up.

           Interviews with contract specialist staff indicated that they are very aware of this
           best practice and utilize it.




                                            54
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


        D.     Purchase Card Use. FAR Part 13.201(b) makes the Governmentwide Purchase
               Card the preferred means of purchasing and paying for Micro-Purchases. FAR
               Part 13.003(f) encourages government agencies to use the Purchase Card to the
               maximum extent practicable, including the purchase and payment of goods and
               services acquired under FAR Part 8.

               Although the scope of this review precluded in-depth testing for this best practice,
               contract specialist staff indicated that goods and services are paid for with the
               Purchase Card whenever possible. Analysis of Purchase Card data shows that
               four transactions in 1996 and 19 transactions in 1997 were made using the
               Purchase Card for Small Purchases.

              FINDINGS: PROCESS FOR REQUESTING SMALL PURCHASES

 With the notable exception of its two Libraries, the Commission’s process for the acquisition of
 Small Purchases follows the Commission’s formal Contracting Procedures as outlined in Exhibit
 6. In fact, with only minor exceptions, both the Micro-Purchasing and Purchase Card processes
 follow these procedures as well.

 Small Purchases are initiated by submitting a completed USITC Form 51 to procurement. A
 completed Form 51 will include: a description of the goods or services needed; quantity;
 estimated cost; recommended source or vendor if known; budget and accounting codes; all
 necessary approval signatures. Procurement reviews and signs each requisition and forwards it to
 the Budget Division for certification of available funds. The Budget Division returns the
 requisition to the Chief, Office of Planning and Procurement for assignment to procurement staff
 for acquisition.

 If the procurement involves a BPA, the PPD staff perform an additional step not required by
 other procurement methods. PPD staff will issue two SACONS-Form Blanket Purchase
 Agreements: one for the vendor and one for the Finance Division. The one produced for the
 vendor does not have an award amount and rightly so: no obligated amount has been awarded.
 The vendor-received BPA is produced to establish an agreement only. Only when calls are
 placed against the BPA will an obligation result.

 The BPA produced by the PPD staff for the Finance Division, however, has an award value for
 the Finance Division to set up an obligation on the Finance accounting system. This obligation is
 then in need of being deobligated at the end of the fiscal year if the entire award value was not
 used.

 The Libraries' processes for requesting and initiating Small Purchases vary from the above-
 described process. Key differences include: the Main Library uses e-mail in lieu of Form 51 to


                                                55
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


 initiate a PO; POs are generated in the Libraries, approved by supervisors and when bulk funding
 is not in place (Main Library) the PO becomes the Funds Commitment document; and purchases
 of certain routine library materials are made by Library staff instead of contract specialist staff.

               FINDINGS: METHODS USED TO MAKE SMALL PURCHASES

 Analysis of Small Purchase transaction data, as confirmed by the results of Small Purchase
 sampling, indicates that ITC uses five principal methods for acquiring goods and services below
 the Simplified Acquisition Threshold of $100,000: These methods, stated as a percentage of
 total ITC Small Purchase transactions in FYs 1996 and 1997 (through July month end), include:

         Method                                         Transactions         % of Total

         Delivery Orders                                          94               29%
         Purchase Orders                                          77               24%
         Library Delivery and Purchase Orders                     30                9%
         Blanket Purchase Agreements                              55               17%
         Inter-Agency Agreements                                  35               11%
         Purchase Card                                            23                7%
         Other Methods                                            11                3%
                                    Total                        325              100%

 Delivery Orders refer to acquisitions from GSA Federal Supply Schedules. Orders For Supplies
 or Services (ITC Form 347) are simple contract documents that describe the government’s offer
 to buy under the terms and conditions and prices stated. BPAs are not contracts but rather an
 agreement for the convenience of both the government and the supplier. BPAs simplify the
 ordering process for repeat purchases of similar items or classes of items by allowing designated
 individuals to place orders by telephone rather than by written Order For Supplies or Services.
 BPAs also permit consolidated invoicing for purchases during a specified period. Inter-agency
 Agreements and Purchase Cards are self-explanatory.




                                                 56
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


 CONCLUSIONS

 A.   ITC Policies and Procedures. While the impact of the absence of streamlined acquisition
      policies and outdated procurement procedures was found to form a significant deterrent to
      the implementation of certain best practices in ITC’s Purchase Card and Micro-Purchase
      processes, they have had only a limited (and insignificant) impact on ITC’s ability to
      implement best practices in its Small Purchase processes. This is due in large to the fact
      that the Small Purchase process is by regulation-necessity more centralized in
      Procurement. Also, professional contract specialist staff are trained to rely on Federal
      Acquisition Regulations and are required to stay on top of changes to federal procurement
      policy and regulation. These facts, however, do not constitute valid justification for
      continued delay in the development of appropriate policies and current, relevant,
      implementing procedures.

 B.   Small Purchase Best Practices. ITC’s Small Purchase process contains several examples
      of applied best practices, as follows:

      i)     Use of Required Sources. Contract specialist’s use of required (priority) sources
             is a strong example of a “best practice” for purchases under the simple acquisition
             threshold in practice. It should be noted that it is not simple adherence to FAR
             requirements that make this a best practice. However, by following these
             priorities ITC and other federal agencies can acquire goods and services from a
             number of sources by utilizing processes that are either inherently streamlined;
             e.g., Interagency Agreements, or which have been streamlined by another agency;
             e.g., Federal Supply Schedules. By purchasing from other agencies, Federal
             Prison Industries, Committee for Purchase from People who are Blind or Severely
             Disabled, and Federal Supply Schedules, ITC is essentially piggy-backing the
             efforts of another agency (usually GSA) and engaging in a procurement process
             that has already eliminated one or more of the following steps: solicitation and
             contractor selection; development of detailed specifications or work statements;
             pre-determination of quality of goods and services offered; negotiation of terms
             and conditions; price regulation; and delivery and payment terms. In addition to
             the time and money usually saved through utilization of required sources,
             acquisitions made in this manner cannot be protested.




                                             57
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


      ii)    Use of Simplified Acquisition Methods. The Commission has consistently used
             BPAs and POs, two of the methods established by FAR, as the preferred
             simplified acquisition methods for the acquisition of goods and services under the
             simplified acquisition threshold. Approximately 41% of all Small Purchase
             acquisitions were made by one of these two methods. The remaining 59% were
             made by higher, priority-order best practice methods such as the Purchase Card,
             GSA schedules, and Interagency Agreements.

      iii)   Use of Simplified Acquisition Practices.

             •      Simplified Competition. Competition for Small Purchase acquisition is
                    consistent with FAR requirements. Informal/telephone quotes were
                    obtained for purchases between $2,500 and $25,000. Formal, written
                    quotations were obtained for procurements in the $25,000 to $100,000
                    range. No tendencies to obtain more than the minimum number of quotes,
                    to obtain formal written quotes when telephone quotes would suffice or to
                    advertise for more than the minimum number of days were observed.

             •      Electronic Commerce. There are minor risks associated with Purchase
                    Card security in electronic commerce; e.g., the risk of theft of account
                    numbers and the resulting unauthorized usage. The fact that other
                    agencies use Purchase Cards in their electronic commerce transactions
                    does not invalidate ITC staff concerns about those risks. However, that
                    other agencies use Purchase Cards in their electronic commerce
                    transactions does disclose that other agencies are willing to accept any
                    risks involved so as to become more efficient and effective in their
                    procurement process. This is a clear example of how specific streamlining
                    policies could encourage staff to utilize Purchase Cards in electronic
                    commerce by communicating the Commission’s willingness to accept the
                    risks as a natural consequence of streamlining.

             •      Bulk Funding. As noted, only the Law Library utilizes this best practice.
                    However, the wide use of BPAs in ITC’s Small Purchasing process with
                    their generally recognized advantages of consolidated invoicing
                    significantly minimizes the impact of limited bulk funding.




                                             58
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


                    The practice of issuing BPAs without competition should be looked into
                    for purposes of determining whether this is an appropriate interpretation of
                    the FAR. FAR indicates competition requirements still apply. Upon
                    determination of understanding FAR’s competitive source requirements
                    for BPAs, Procurement needs to agree upon consistent application of that
                    understanding in practice.

                    Bulk funding should be established for each category of goods and
                    services purchased on a repeat basis, including those purchased under a
                    BPA. This will both eliminate the need for issuing a BPA to Finance to
                    establish an award value and eliminate step D (Commitment Funding
                    Approval) from the process documented in Exhibit 6.

             •      Best Value. The practice of obtaining best value appears to be well
                    established within contract specialist staff.       However, since the
                    determination of best value is essentially a matter of professional
                    judgment, and the thought process behind the judgment is not often
                    documented, this conclusion is difficult to substantiate. This statement
                    should not be construed as a “back-door” recommendation for greater
                    documentation of the best value determination. To the contrary, in context
                    of acquisition streamlining and increased empowerment of government
                    employees, the rationale behind Procurement professional judgment,
                    related to the acquisitions of goods and services below the simplified
                    acquisition threshold, need not be documented in detail.

 C.   Process for Requesting Small Purchases. With only limited exceptions, the process
      documented in Exhibit 6 is the primary process for all Commission procurement activity.
      When applied to the Micro-Purchase and Purchase Card processes described in the other
      phases of this review, this process tends to be overly focused on procedural steps and
      control points and, therefore offers several key opportunities for streamlining. The
      process used for the BPA produces opportunities for streamlining through the use of bulk
      funding. However, when applied to ITC’s process for acquiring goods and services
      between $2,500 and $100,000, the process is (in general) appropriate and justifiable on
      the basis that one would expect to see more stringent controls for procurements that
      average over $20,000 (Small Purchases) than for procurements which average less than
      $450 (Micro-Purchases). Nevertheless, opportunities for additional streamlining are
      present.




                                             59
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


 D.     Methods Used to Make Small Purchase. As indicated previously ITC’s Small Purchase
        acquisitions are made, almost exclusively, by one of five methods as follows: Delivery
        Orders and Purchase Orders (62%), Blanket Purchase Agreements (17%), Purchase Cards
        (7%), and Inter-agency Agreements (11%).

        These follow FAR Part 8 as well as the methods established by FAR Parts 13.303 and
        .302 as the preferred simplified acquisition methods for making purchases under the
        simplified acquisition threshold. Purchase Card use for Small Purchases, which increased
        from four in FY 1996 to 19 in FY 1997 should continue to increase significantly.

        Also, there appears to be varying interpretations among procurement staff about how
        BPAs are to be issued, specifically regarding the need for competition. These
        inconsistencies are reflected in procurement files where certain BPAs show evidence of
        competition (or contain sole source justifications) and other BPAs appear to be sole
        source with no documentation.

 OBJECTIVE B

 Select a sample of Small Purchases and determine whether:

        A.     the procurement method chosen was the most appropriate one and

        B.     for the procurement method chosen, the process was completed in the most
               efficient manner.

 FINDINGS

 Sampling confirmed earlier interviews with contract specialist staff that ITC’s Small Purchases
 were acquired by one of five procurement methods. Sample findings are summarized as follows:

                                                                      No. by Year     Total
             Method                                                   96      97     Sampled
 Blanket Purchase Agreements                                           1        6         7
 Deliver Orders                                                        3        3         6
 Inter-Agency Agreements                                               3        3         6
 Purchase Orders                                                      *8        1         9
 Purchase Cards                                                        1        3      **4
              Total                                                   16      16        32

                                     *      includes four Library Transactions
                                     **     includes one transaction treated as a Micro-Purchase


                                               60
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


 All but four transactions were made by contract specialists. In FY 1996, the Main Library and
 the Law Library each made two Small Purchases for library materials.

 As noted under Objective A findings related to methods used to procure Small Purchases, the
 methods noted above are best practice methods for acquisition of goods and services under the
 Simplified Acquisition threshold.

 CONCLUSIONS

 From the results of the sample testing, it is concluded that the procurement method chosen for
 each transaction was appropriate and most suitable for that procurement. This statement accepts
 as reasonable ITC employees' reluctance to use the Purchase Card in electronic commerce due to
 the Commission’s lack of policy regarding the acceptance of minor security-concern risks. Once
 the Commission establishes its streamlined acquisition policies, advocating the use of Purchase
 Cards in electronic commerce and its willingness to accept any related risk of credit card fraud, a
 significant shift toward electronic commerce is expected (perhaps as high as 10 to 20% of total
 Small Purchase transactions).


 OBJECTIVE C

 Analyze schedule versus open market purchases. Determine if cost savings may be achieved
 through increased schedule buying.

 FINDINGS

 As indicated previously, the Commission has done an appropriate job of choosing both the right
 source and the most appropriate procurement method for each Small Purchase transaction.
 Choosing the right source goes beyond a “simple” determination of whether a purchase should be
 made on the open market or from a GSA Federal Supply Schedule. A careful determination of
 whether needed goods or services can be acquired in accordance with priorities established by the
 FAR should be made. FAR Part 19 establishes priorities related to small disadvantaged and
 women-own businesses and the FAR Part 8 establishes priorities with its list “Priorities of Use of
 Government Supply Sources.” Of the eight priorities listed under supplies the last is
 commercial; i.e., open market sources.

 Results of sample testing of 32 Small Purchase transactions indicated that one was in fact treated
 as a Micro-Purchase since the amount purchased was $2,500 and $20 was added for shipping
 charges. Sixteen were purchased in accordance with Part 8 priorities using GSA vendors and
 other federal agencies; the remaining 15 were open-market purchases.



                                                 61
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


 CONCLUSIONS

 According to the Procurement files, 52% of sampled Small Purchases (16 of 31) were acquired
 from FAR Part 8 priority sources. Of the remaining 15 transactions, the files had no indication
 that these were FAR priority-sourced purchases; i.e., they were most likely open-market source
 purchases. While the breakdown between FAR Part 8 priority sources and open market sources
 was not as heavily weighted toward FAR Part 8 as was expected, analysis indicates that (with
 perhaps one exception) the open market sources were appropriate. Seven of the 15 open market
 transactions were for standard building support functions; e.g., heating and air conditioning,
 building signage, building security devices, and disassembly of prefabricated furniture. Three of
 the 15 open market transactions were for library materials from specific sources providing such
 materials. The five remaining open market transactions were for goods and services believed not
 to be available from GSA schedule vendors, with four of those competed for in the open market.

 Contract specialist staff indicated that FAR Part 8 and FAR Part 19 priorities are carefully
 adhered to. The findings from the sample support their statement.


 OBJECTIVE D

 Evaluate the Commission’s plans for meeting the FASA requirement of becoming fully capable
 of using FACNET for at least 75% of eligible contract awards, as follows:

        A.     evaluate the reasonableness of such plans and ITC’s goals for implementation and

        B.     determine the extent to which FACNET has been utilized, by fiscal year, for
               eligible Small Purchase contracts.

 FINDINGS

 Title IX of FASA requires the Administrator of the Office of U.S. Federal Procurement Policy to
 develop, and federal agencies to implement, a federal acquisition computer network architecture
 for the purpose of taking full advantage of the acquisition streamlining benefits inherent in
 electronic commerce. Specific government functions as stated in FAR Part 4.504(a) include:
 providing solicitations and receiving responses to solicitations, providing public notice of
 awards, receiving questions, issuing orders, making payment, and archiving data related to each
 procurement action. Specific private sector functions of FACNET include: accessing,
 reviewing, and responding to solicitations issued by government Agencies; receiving orders;
 accessing information on contract awards (including price) made by the executive agency; and
 receiving payment via bank card, electronic funds transfer, or other automated means.



                                                62
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


 Two levels of certification are provided for: Interim FACNET and Full FACNET. An agency is
 considered to have implemented Interim FACNET; i.e., certification when: it is capable of
 issuing notices and solicitations and receiving responses electronically and when its private
 sector vendors are capable of accessing notices, reviewing solicitations and submitting responses
 to solicitations electronically and when the Agency has certified to the Administrator of the
 Office of U.S. Federal Procurement Policy that the agency has implemented interim FACNET.
 Agencies are considered to have implemented Full FACNET when: all of the functions
 described in the preceding paragraph have been implemented; 75% of eligible (not otherwise
 excluded) contracts in the preceding fiscal year were entered into via FACNET; and the head of
 the agency, with concurrence of the Office of U.S. Federal Procurement Policy, has certified to
 the Congress that the agency has implemented Full FACNET.

 Eligible contracts include all contracts that are: in the private sector; in excess of the Micro-
 Purchase threshold of $2,500 and under the simplified acquisition threshold of $100,000; and
 that have not been exempted by the head of the agency (FAR Part 4.506).

 Agencies which have not achieved Full FACNET certification by December 31, 1999, will be
 sanctioned by prohibiting the agency from using simplified acquisition procedures for contract
 actions which exceed $50,000. Sanctions for failing to achieve interim FACNET certification
 have been eliminated.

       FINDINGS: ITC’S PLANS FOR ACHIEVING FULL FACNET CERTIFICATION

 According to a letter written on August 8, 1995, by the Director of OMS to the Administrator of
 the Office of U.S. Federal Procurement Policy, Office of Management and Budget (OMB), the
 Director certified that ITC achieved interim FACNET (only one year after the requirement was
 established by the FASA of 1994). At that time, the Commission’s plans were to continue to
 move ahead and implement the remaining four functions well in advance of the December 31,
 1999, deadline for full FACNET certification (a specific deadline does not appear to have been
 established).

 Since that time a ground swell of complaints has been received from private sector contractors
 alleging that the high cost of FACNET participation (an estimated $25,000) is in effect
 discriminating against the small business person, the precise population for which government
 acquisitions between $2,500 and $100,000 are set-aside to support.

 As a result, FACNET implementation is on hold, sanctions for failing to achieve interim
 certification have been dropped and it is widely believed that FACNET, in its current form, will
 be “scrapped” in favor of a less expensive Internet-based system.

   FINDINGS: DETERMINE THE EXTENT TO WHICH FACNET HAS BEEN UTILIZED


                                                63
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


                        BY FISCAL YEAR OF ELIGIBLE CONTRACTS

 According to contract specialist staff, interim FACNET is being used for eligible procurement
 actions (procurements in the Commercial sector for amounts between $2,500 to $100,000). Due
 to the inherent statistical reporting limitations in the current computer system, SACONS, there is
 no way to determine which Small Purchase transactions were conducted via FACNET. Since
 reviewing 100% of Small Purchase transactions was not feasible and required use of FACNET is
 no longer mandatory, a definitive statement on the extent of FACNET utilization cannot be
 made.

 CONCLUSION

 The Commission should support the current government-wide move to completely eliminate the
 use of FACNET in its current form and move toward conducting electronic commerce on the
 Internet.


 OBJECTIVE E

 Evaluate the efficiency and effectiveness of the invoice approval and payment process for both
 Micro-Purchase and Small Purchase acquisitions.

 FINDINGS

 At ITC, invoices are generally approved by the requester of the service (another department
 representative familiar with the requisition may approve for the requester as an alternate).
 Invoice payment and recording are performed in the Finance Division. Since the procurement
 has been approved in advance, the Finance Division obtains the approval for payment from the
 requester as an acknowledgment of receipt and satisfaction for the goods or services provided.

 Before an invoice can be paid by ITC, the procured goods or services being invoiced need to be
 recorded as an obligation on the accounting system. To record the obligation, a contract
 specialist employee sends copies of each procurement award to the Finance Division. In
 instances where a BPA is used for the procurement, the BPA is assigned an award value by
 Procurement for recognition in the accounting system as an obligated amount.




                                                64
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


 As invoices are received by the Commission, they are routed to the Finance Division. When
 received by the Finance Division, the invoices are date-stamped and the information of the
 invoice is recorded onto a management information database. Each invoice is assigned a number
 (“Log Number”) for tracking purposes. The management information database contains log
 numbers as an identification tool in locating the invoice upon inquiry. The management
 information database serves two purposes: to maintain centralized tracking of invoices received,
 not yet approved, and to facilitate the creation of federally mandated “Prompt Payment” reports.
 (The Prompt Payment report is used to notify OMB of the results of the Commission’s
 compliance to the 30-day prompt payment regulation.) Once the invoice is recorded into the
 management information database, a copy of the invoice is made and sent to the requesting
 Division for approval and acknowledgment of receipt and satisfaction for the goods or services
 provided.

 Upon receipt of invoices from the Finance Division, employees who are responsible for
 approving the invoice will ensure the invoice accuracy by one of three reconciliation means:

        A.      review the invoice transactions for reasonableness of amount, and probability of
                goods or services receipt;

        B.      verify specific details of the invoice transactions to internal documentation to
                ensure the goods or services provided are received and accurately invoiced; or

        C.      use a combination of A or B above.

 Once the employee is satisfied that the invoice is accurate, a signature is applied. Examples of
 using invoice reconciliation, letter A above, were observed only in instances of high volume
 small dollar transactions; i.e., more than 30 transactions per month with each transaction less
 than $20.

 A file of the original invoices awaiting approval is maintained. As each approved invoice copy is
 received, the original invoice is pulled from the file for further processing. Periodically, this file
 is reviewed to ascertain if any invoices out for approval are reaching the 30-day prompt payment
 deadline. Once these stale outstanding invoices are identified, the Finance Division pursues the
 requesting Division for a status on the invoice (i.e., seeks approval to pay).




                                                  65
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


 In the Finance Division, although the accounting system could be utilized, an approved invoice is
 physically matched to each Procurement award form to ensure the obligation has already been
 recorded. However, the physical matching is considered quicker to perform than a system
 verification, and therefore is a more efficient means of reconciliation. In addition, all physical
 forms are periodically reconciled to the accounting system to ensure integrity of the accounting
 system data, and as a by-product, the integrity of the physical forms.

 CONCLUSIONS

 The process for invoice approval and payment outside of the Finance Division is streamlined.
 (Usually only one person from the requesting Division is required to approve the invoice.) This
 person's signature provides proper acknowledgment of receipt and satisfaction for the goods or
 services provided. No other paperwork is required to be completed by persons outside of the
 Finance Division.

 However, the invoice reconciliation process employed by employees who are responsible for
 approving invoices is inconsistent. Not all invoices received by the Commission are thoroughly
 verified to internal supporting documentation to validate both the receipt of goods and services
 and the accuracy of the amount billed.

 With respect to the practices maintained in the Finance Division, there will be limited
 opportunities to streamline processes without addressing the adequacy and efficiency of the
 accounting system in place. Without conducting a full assessment of the potential of the
 accounting system in operation and its feasible alternative systems available in the marketplace,
 the process of identifying streamlining of accounting recordkeeping and processing is confined to
 the manual practices in place.

 Two labor-intensive practices have been observed: (1) maintaining a database of invoices
 received and (2) the manual verification of invoices to the award forms. The practice of
 maintaining a management information database can be defended as necessary due to the current
 deficiencies of the accounting system. The manual verification practice is only used as an
 alternative to the online system verification process. Since a full reconciliation of the system to
 the manual forms is performed, the risk of finding dissimilar information from one method
 versus the other is diminished.




                                                 66
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


 The other manual practice observed in reviewing the process pertains to the full reconciliation of
 the accounting system to the manual award forms and invoices. This process is not associated
 with the efficiency or effectiveness of the invoice payment and approval process. Since further
 examination into the processes employed in the accounting area is beyond the scope of this
 review, a final conclusion as to the need or efficiency of having the full reconciliation in place is
 deferred.

 The efficiency and effectiveness of the integration of accounting system data and procurement
 system data need to be examined to determine better solutions for sharing information. This
 process may require an examination of the accounting system in detail and comparing it to other
 accounting system alternatives available in the marketplace.


 OBJECTIVE F

 Identify ways in which the Commission could further streamline the procurement process for
 Small Purchases between $2,500 and $100,000.

 CONCLUSIONS

 As stated previously under Objective A, the Commission’s process for requesting Small Purchase
 goods and services is generally appropriate in terms of level of control and process. Virtually all
 Small Purchases are made by the contract specialist staff. Their knowledge of, and adherence to,
 the FAR makes this the strongest of the three phases of the Commission procurement processes
 reviewed.

 Fundamental to streamlining is an understanding that making changes to ITC's current process
 goes far beyond simple implementation of FASA-mandated, FAR-regulated, changes to existing
 procurement law. It requires changes in the way government finance and procurement staff have
 traditionally conducted their business. For this reason, policies that encourage initiative and
 which demand empowerment must provide the foundation for any institutionalized change.
 Operating procedures which do anything less than reinforce initiative and employee
 empowerment will eventually undermine any attempt to streamline.




                                                  67
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


 RECOMMENDATIONS

 We recommend that the Director of Administration:

        15)    if necessary to determine the FAR requirements of obtaining competitive sources
               for procurements using BPAs, obtain a General Counsel opinion and provide the
               opinion to PPD staff for implementation;

        16)    require the use of Purchase Cards for the acquisition of Small Purchases whenever
               feasible and practical;

        17)    adopt a policy to use a paperless, in house request system to prepare, approve,
               review, and have certify funding for Small Purchases;

        18)    eliminate the requirement for OFB fund certification on Small Purchases;

        19)    eliminate approvals for acquisitions under a predetermined, arbitrary amount, such
               as $5,000; and reduce to one, the number of approvals for acquisitions between
               $5,000 and $25,000;

        20)    establish bulk funding for each category of goods and services purchased on a
               repeat basis;

        21)    require the use of automated procedures in the review approval, and funding
               certification processes for Small Purchases;

        22)    determine which types of acquisitions could be more effectively and efficiently
               transacted with VISA checks prior to the time VISA checks become available;

        23)    establish minimum dollar thresholds for which transactions are subject to full
               verification;

        24)    provide guidelines for appropriate methods to review invoices; and

        25)    establish the specific types of internal documentation to be examined in the
               verification process (e.g., packing slips, service receipt forms, control logs, price
               lists, etc.).




                                                68
           THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                  SIMPLIFIED ACQUISITION PROCEDURES
SECTION IV: FINDINGS, CONCLUSIONS, AND RECOMMENDATIONS BY OBJECTIVE
                                                    Chapter Three


 COMMISSION COMMENTS

 The Director of Administration generally agreed to Recommendation 15 and agreed to
 Recommendations 18, 19, and 20 with reservations.

 Recommendation 16, to increase the use of Purchase Cards, was revised to eliminate the specific
 goal; however, we believe that following the recommendations herein will increase Purchase
 Card use. Current literature points to a goal in most agencies for a 90% use of Purchase Cards.




                                               69
             THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
                   SIMPLIFIED ACQUISITION PROCEDURES
                                APPENDIX


                                          APPENDIX


      OVERVIEW OF SELECTED AGENCIES’ PURCHASE CARD PROGRAMS

Following is a brief overview of each of the four other agency Purchase Card systems reviewed.
Information was obtained by telephone interview and in most instances confirmed by reviewing
supporting agency documentation. The U.S. Federal Trade Commission (FTC) was selected as a
small (under 1,000 employee) commission and the U.S. Coast Guard was selected because of the
positive comments about their program observed in GAO's report. NASA invited questions
through its Internet web site and professional contacts provided access to the U.S. Department of
Justice. Their practices are summarized as follows (an asterisk (∗) is placed next to those
practices which have been evaluated as a “best practice”):


                       NASA-KENNEDY SPACE FLIGHT CENTER

       Card Issuance∗: Requires Cardholder training prior to Card issuance.

       Card Use:
             •        Bulk Funding∗: Involving the commitment of funds for the entire year is
                      required. September 15 is cut-off date for Card use.
              •       Purchase Request: A Credit Card Purchase Request (similar to ITC’s
                      Credit Card Authorization form) signed by an Approving Official is
                      submitted to Cardholder by e-mail, fax or hard copy.
              •       Cardholder Screening: Credit Card Purchase Request form is screened by
                      the Cardholder to (1) determine fund availability and (2) verify that
                      requested item constitutes an authorized purchase.
              •       Procurement Screening: Procurement reviews request to determine
                      whether item is available from required sources.
              •       Purchase Items: In accordance with RMBCS contract.
              •       Receipt of Purchase: Inspect to ensure conformance with specifications
                      and arrange for inventorying of controlled items.

       Card Reconciliation:
             •       Reconciliation Schedule:   NASA has an established schedule for
                     reconciliation of SOAs. Five days each for Cardholder and Approving
                     Official reviews.
             •       Reconciliation Process∗: When the statement is correct, the Cardholder
                     signs, the Approving Official signs, and the SOA is forwarded for
                     payment.



                                               70
     THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
           SIMPLIFIED ACQUISITION PROCEDURES
                        APPENDIX



Miscellaneous:
       −      Average dollar value per transaction is $350.
       −      ∗ Cardholders track available funds via computerized telephone log of
              Purchase Card purchase.
       −      ∗ Only procurement uses the Purchase Cards for transactions greater than
              $2,500.
       −      ∗ Procurement will not accept purchase requests under $2,500 that can be
              made with the Card.
       −      The Agency Program Coordinator is part of agency procurement staff.


              U.S. DEPARTMENT OF TRANSPORTATION:
                     U.S. COAST GUARD BRANCH:

Card Issuance: Not discussed

Card Use:
      •       Bulk Funding∗: Is used routinely.
      •       Purchase Request∗: (1) over the counter purchase - Cardholder signs
              charge slip and retains in personal files for account reconciliation
              purposes; (2) telephone purchases; a telephone order form is completed to
              provide an accountable record; form is maintained by Cardholder for
              account reconciliation purposes.

Card Reconciliation∗: When statement is correct, procedures indicate that sales slip or
telephone log should be attached. Telephone interview of person responsible for Coast
Guards Purchase Card program indicated that this is not done in practice; i.e., no
documentation is the norm.

Miscellaneous:
       −      ∗ The typical Coast Guard Purchase Card transaction is an over the
              counter purchase (No purchase requisition and Approving Official
              signature is required). SOAs are reviewed and signed by both Cardholder
              and the Approving Official prior to submission for payment.∗ This is
              normally the only approval in the process.
       −      Multiple Cards are issued to those Card users who are required to purchase
              from various accounting codes; i.e., a Card for each code to accommodate
              bulk funding limitations.
       −      ∗ The Agency Program Coordinator is Agency Procurement Staff.




                                       71
     THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
           SIMPLIFIED ACQUISITION PROCEDURES
                        APPENDIX



                    U.S. DEPARTMENT OF JUSTICE:

Card Issuance∗: Requires certification of completed training of both Cardholder and
Approving Official prior to Card issuance.

Card Use:
      •       Bulk Funding∗: Bulk funding is recommended and is being used
              increasingly.
       •      Purchase Request∗: Formal Purchase Requisition is not required;
              however, some form of initiating documentation is required; e.g., memo,
              e-mail. No approvals are required.
       •      Purchase Items: Cardholder prepares the Purchase Card purchase request
              and obtains Approving Officials signature unless this level of approval is
              waived∗ via written policy statement of the Cardholder organization.
       •      Receipt of Goods∗: Is verified against order, accountable property is
              inventoried pursuant to agency regulations.

Reconciliation:
Procedures require that correct statements be reviewed and signed by Cardholders who
submit them with support documentation to their Approving Officials. In practice, many
organizations waive the requirement for support documentation via written policy.

Miscellaneous:
       −      ∗ Maximum single purchase limit for Cardholders who do not have
              contracting officer authority is $2,500.
       −      ∗ APC (Agency Purchase Card Program Coordinator) is located in
              procurement.
       −      ∗ DOJ Purchase Card program relies on built-in system controls; i.e.,
              single and monthly purchase limits and merchant activity codes
              established by RMBCS.




                                      72
      THREE-PART REVIEW OF USITC'S IMPLEMENTATION OF
            SIMPLIFIED ACQUISITION PROCEDURES
                         APPENDIX


                   U.S. FEDERAL TRADE COMMISSION

Card Issuance∗: Training is required prior to Card issuance.

Card Use:
      •       Bulk Funding*: Is preferred method of funding; September 12 is last day
              for use of Purchase Cards.
       •      Purchase Request*: Official procurement request document is not
              required.
       •      Purchase Item*: Request is documented in automated log which provides
              a record of the transactions and tracks fund availability. Supervisory
              (Approving Official) approval is not required but may be used at
              supervisor's option.

Statement Reconciliation: when the Statement is correct, (1) Cardholder reconciles,
signs, attaches supporting documentation, and submits to Approving Official; or (2)∗
attaches computerized log of purchases that contains necessary budget codes and signs
Statement.

Approving Official reviews documents, signs Statement, and submits documentation for
payment.

Miscellaneous:
       −      FY 1997 Purchase Card transactions total 2,400.
       −      Average dollar value prior transaction is $200.
       −      FTC has approximately 900 employees of which between 6 and 7% are
              Cardholders (approximately 60).
       −      Procurement staff totals 4; i.e., Grade 13, 12, 8, and a clerk.




                                       73
                                                                              U.S.I.T.C.                                                               Exhibit 1




Purchase Card Authority as of 7/31/97 per RMBCS                                                                                         Revised: as of 9/5/97
                                                                                                          Single         30-Day         Single         30-Day
Approving Official                               CARDHOLDERS as                                           Purchase       Spending       Purchase       Spending
& Job Title                                      Noted on Exhibit 5     CARDHOLDERS Title                 Limit          Limit          Limit          Limit

Chief of Planning and Procurement Division       1997 Cardholder # 3   Senior Contract Specialist         $ 25,000.00    $ 50,000.00    $ 100,000.00   $ 100,000.00
                                                 1997 Cardholder # 8   Contract Specialist 1              $ 25,000.00    $ 50,000.00    $ 100,000.00   $ 100,000.00
                                                 1997 Cardholder # 9   Contract Specialist 2              $ 25,000.00    $ 50,000.00    $ 25,000.00    $ 50,000.00

Chief of Facilities Support Division             1997 Cardholder # 5 Management Analyst                   $   5,000.00   $ 25,000.00    $   2,500.00   $ 25,000.00
                                                 1997 Cardholder # 10 Support Services Specialist         $   2,500.00   $  3,000.00    $   2,500.00   $  3,000.00

Chief of Publishing Division                     1997 Cardholder # 7   Visual Design Specialist           $   2,500.00   $ 10,000.00    $   2,500.00   $ 10,000.00


Director of the Office of Information Services   1997 Cardholder # 1 Secretary                            $   2,500.00   $   7,500.00   $   2,500.00   $   7,500.00
                                                 1997 Cardholder # 12 Chief of Main Library Services      $   2,500.00   $   5,000.00   $   2,500.00   $   5,000.00

Chief of Main Library Services                   1997 Cardholder # 11 Librarian (Main Library)            $   5,000.00   $ 20,000.00    $   2,500.00   $ 20,000.00


Chief of Information Systems Division            1997 Cardholder # 6   Computer Specialist                $   2,500.00   $ 10,000.00    $   2,500.00   $ 10,000.00


Secretary to the Commission                      1997 Cardholder # 2   Staff Assistant to the Secretary   $    500.00    $   2,500.00   $    500.00    $   2,500.00


Law Librarian                                    1997 Cardholder # 4   Librarian (Law Library)            $   3,000.00   $ 15,000.00    $   2,500.00   $ 15,000.00
                                                                           U.S.I.T.C.                                                                  Exhibit 2




Purchase Card Usage as of 7/31/97 per RMBCS
                                                      Single          30-Day         Average number* of       Average $ Amount*           Average $ Amount
                                                      Purchase        Spending       Transactions per Month   Charged per Month           of Each Purchase
CARDHOLDERS            CARDHOLDERS Title              Limit           Limit               1997         1996         1997        1996             1997         1996

1997 Cardholder # 3   Senior Contract Specialist      $ 25,000.00     $ 50,000.00           1.6        N/A    $   734.53          N/A     $   459.08           N/A
1997 Cardholder # 8   Contract Specialist 1           $ 25,000.00     $ 50,000.00           4.7        N/A    $ 6,052.44          N/A     $ 1,296.95           N/A
1997 Cardholder # 9   Contract Specialist 2           $ 25,000.00     $ 50,000.00           9.6        4.2    $ 7,648.17    $ 3,917.36    $   796.68   $     940.17

1997 Cardholder # 5 Management Analyst                $    5,000.00   $ 25,000.00           1.7         3.0   $   663.51    $   574.61    $   390.30   $     574.61
1997 Cardholder # 10 Support Services Specialist      $    2,500.00   $  3,000.00           2.6         1.3   $   524.58    $   288.82    $   201.76   $     231.06

1997 Cardholder # 7   Visual Design Specialist        $    2,500.00   $ 10,000.00           0.3        N/A    $   328.33           N/A    $   985.00           N/A


1997 Cardholder # 1 Secretary                         $    2,500.00   $   7,500.00          5.0         1.8   $ 2,660.55    $ 1,139.17    $   532.11   $     632.87
1997 Cardholder # 12 Chief of Main Library Services   $    2,500.00   $   5,000.00          3.4         2.3   $   667.04    $   426.80    $   196.19   $     182.91

1997 Cardholder # 11 Librarian (Main Library)         $    5,000.00   $ 20,000.00          36.9       24.7    $ 8,524.05    $ 4,842.55    $   231.00   $     196.32


1997 Cardholder # 6   Computer Specialist             $    2,500.00   $ 10,000.00           0.2         0.4   $   468.58    $   750.93    $ 2,342.91   $ 1,752.16


1997 Cardholder # 2   Staff Assistant to the Secretary $    500.00    $   2,500.00          0.9         1.8   $   214.69    $   321.54    $   238.55   $     175.38


1997 Cardholder # 4   Librarian (Law Library)         $    3,000.00   $ 15,000.00          11.2         7.9   $ 7,175.18    $ 4,166.04    $   640.64   $     526.24


                                                      COMMISSION WIDE **                   78.1       55.0    $ 34,925.08   $ 17,725.12   $   450.65   $     352.74

                                                                                     * Average computed for months when employee was a cardholder
                                                                                     ** Includes transactions from departed cardholders
                                                                                     N/A - Employee was not a Cardholder during the fiscal period
                                                     U.S.I.T.C.                                                     Exhibit 5

                                                                                                                Cardholders'
                                                                                                                    Monthly
                                                                                                                     Usage




                            Monthly                                  1997 FISCAL YEAR TO DATE
                          Purchase    Average $ of     Fiscal Year
CARDHOLDERS $             Average *      Purchase      $ TOTALS            Jul-97        Jun-97       May-97         Apr-97
1997 Cardholder # 1    $  2,660.55    $     532.11   $ 26,605.48     $ 1,206.00     $ 2,497.99    $ 1,317.82    $ 4,870.83
1997 Cardholder # 2    $    214.69    $     238.55       2,146.91         189.00            -          625.95         (4.92)
1997 Cardholder # 3    $    734.53    $     459.08       7,345.29            -           135.00           -             -
1997 Cardholder # 4    $  7,175.18    $     640.64      71,751.81      11,940.99       4,250.20      3,124.03      7,198.52
1997 Cardholder # 5    $    663.51    $     390.30       6,635.08         171.53       1,365.30        285.18         68.52
1997 Cardholder # 6    $    468.58    $   2,342.91       4,685.81            -              -             -             -
1997 Cardholder # 7    $    328.33    $     985.00       1,970.00       1,970.00            -             -             -
1997 Cardholder # 8    $  6,052.44    $   1,296.95      54,471.99      17,408.64       4,663.29      2,824.99     15,871.00
1997 Cardholder # 9    $  7,648.17    $     796.68      76,481.69       9,675.39      10,350.94      4,982.75     14,886.89
1997 Cardholder # 10   $    524.58    $     201.76       5,245.80         701.31            -          470.74        211.50
1997 Cardholder # 11   $  8,524.05    $     231.00      85,240.51      13,639.55       8,680.63      6,338.58      6,031.81
1997 Cardholder # 12   $    667.04    $     196.19       6,670.41          24.99            -             -             -
              TOTAL    $ 34,925.08    $     450.65   $ 349,250.78    $ 56,927.40    $ 31,943.35   $ 19,970.04   $ 49,134.15

                       * Average computed for months when employee was a cardholder




                            Months    Average # of                   1997 FISCAL YEAR TO DATE
                              Card      Purchases      Fiscal Year
CARDHOLDERS #                  Held    Per Month *     # TOTALS            Jul-97        Jun-97       May-97         Apr-97
1997 Cardholder # 1             10             5.0             50             3              5             3             10
1997 Cardholder # 2             10             0.9              9             1              0             2              0
1997 Cardholder # 3             10             1.6             16             0              1             0              0
1997 Cardholder # 4             10            11.2            112            18              2             9             10
1997 Cardholder # 5             10             1.7             17             2              3             1              2
1997 Cardholder # 6             10             0.2              2             0              0             0              0
1997 Cardholder # 7              6             0.3              2             2              0             0              0
1997 Cardholder # 8              9             4.7             42             7              4             9              3
1997 Cardholder # 9             10             9.6             96             7             11             7             16
1997 Cardholder # 10            10             2.6             26             3              0             2              1
1997 Cardholder # 11            10            36.9            369            42             33            38             37
1997 Cardholder # 12            10             3.4             34             1              0             0              0
              TOTAL                           78.1            775            86             59            71             79

                                      * Average computed for months when employee was a cardholder




                                                     Page 1 of 4
                                                    U.S.I.T.C.                                                  Exhibit 5

                                                                                                             Cardholders'
                                                                                                                 Monthly
                                                                                                                  Usage




CARDHOLDERS $               Mar-97        Feb-97        Jan-97          Dec-96        Nov-96        Oct-96
1997 Cardholder # 1    $ 5,769.06    $ 3,893.63    $ 1,775.00      $       -     $ 3,900.15    $ 1,375.00
1997 Cardholder # 2         233.29        506.70        596.89             -             -             -
1997 Cardholder # 3       3,594.88      1,706.88        693.79        1,190.44         24.30           -
1997 Cardholder # 4      11,030.90        855.70      8,875.45       10,252.22      5,884.45      8,339.35
1997 Cardholder # 5         573.75      3,336.50         74.69          485.16        274.45           -
1997 Cardholder # 6            -             -        2,469.81        2,216.00           -             -
1997 Cardholder # 7            -             -            N/A             N/A           N/A           N/A
1997 Cardholder # 8       2,689.28      3,572.11      5,402.14        2,040.54           -            N/A
1997 Cardholder # 9       4,105.31      5,444.26      2,511.41        5,526.82      4,167.97     14,829.95
1997 Cardholder # 10         75.06      1,462.65        160.40          870.17        195.00      1,098.97
1997 Cardholder # 11     14,975.08      4,723.35     14,458.17        4,926.18      3,007.94      8,459.22
1997 Cardholder # 12         76.88      2,343.43        379.15          655.80        189.15      3,001.01
              TOTAL    $ 43,123.49   $ 27,845.21   $ 37,396.90     $ 28,163.33   $ 17,643.41   $ 37,103.50




CARDHOLDERS #               Mar-97        Feb-97        Jan-97          Dec-96        Nov-96        Oct-96
1997 Cardholder # 1            10            11             2               0             5             1
1997 Cardholder # 2             2             2             2               0             0             0
1997 Cardholder # 3             4             5             2               3             1           -
1997 Cardholder # 4            12             4            12              17            11            17
1997 Cardholder # 5             1             3             1               3             1             0
1997 Cardholder # 6             0             0             1               1             0             0
1997 Cardholder # 7             0             0           N/A             N/A           N/A           N/A
1997 Cardholder # 8             5             6             4               4             0           N/A
1997 Cardholder # 9             9             8             5               5             7            21
1997 Cardholder # 10            2             5             3               5             2             3
1997 Cardholder # 11           60            28            47              24            23            37
1997 Cardholder # 12            1             9             4               5             3            11
              TOTAL           106            81            83              67            53            90




                                                     Page 2 of 4
                                                         U.S.I.T.C.                                               Exhibit 5

                                                                                                               Cardholders'
                                                                                                                   Monthly
                                                                                                                    Usage




                            Monthly                                      1996 FISCAL YEAR
                           Purchase    Average $ of        Fiscal Year
CARDHOLDERS $              Average *         Purchase    $ TOTALS       Sep-96      Aug-96       Jul-96      Jun-96
1996 Cardholder # 1    $    2,724.83   $       394.38    29,973.15        N/A        67.21      406.57    4,980.38
1996 Cardholder # 2    $    1,139.17   $       632.87     5,695.86    2,547.10    3,148.76         -            -
1996 Cardholder # 3    $      321.54   $       175.38     1,929.22      408.40      447.30    1,066.17         7.35
1996 Cardholder # 4    $       82.42   $        92.72       741.77        N/A         N/A         N/A        92.97
1996 Cardholder # 5    $    4,166.04   $       526.24    49,992.50    6,363.95    3,487.25    5,068.08   10,006.00
1996 Cardholder # 6    $      574.61   $       574.61     1,723.83       11.33    1,471.92      240.58         N/A
1996 Cardholder # 7    $      750.93   $     1,752.16     5,256.49         -           -      2,481.49          -
1996 Cardholder # 8    $      736.47   $       409.15     3,682.36        N/A         N/A         N/A          N/A
1996 Cardholder # 9    $    3,917.36   $       940.17 $ 47,008.26 $ 2,358.15 $ 7,388.88 $ 3,317.94 $ 4,297.70
1996 Cardholder # 10   $      288.82   $       231.06     3,465.84      566.38      410.17      995.75       58.95
1996 Cardholder # 11   $         -              None           -          N/A         N/A         N/A          N/A
1996 Cardholder # 12   $    4,842.55   $       196.32    58,110.62   10,902.66    3,580.37    6,174.46    5,647.39
1996 Cardholder # 13   $      426.80   $       182.91     5,121.56      908.36      821.46         -         57.40
1996 Cardholder # 14   $         -              None           -          N/A         N/A         N/A          N/A
              TOTAL    $   17,725.12   $       352.74 $ 212,701.46 $ 24,066.33 $ 20,823.32 $ 19,751.04 $ 25,148.14

                       * Average computed for months when employee was a cardholder


                             Months    Average # of                      1996 FISCAL YEAR
                               Card        Purchases       Fiscal Year
CARDHOLDERS #                   Held       Per Month *      # TOTALS       Sep-96     Aug-96          Jul-96      Jun-96
1996 Cardholder # 1              11               6.9             76         N/A          1               3           7
1996 Cardholder # 2               5               1.8              9           6          3               0           0
1996 Cardholder # 3               6               1.8             11           2          4               4           1
1996 Cardholder # 4               9               0.9              8         N/A        N/A            N/A            1
1996 Cardholder # 5              12               7.9             95          24          8              11          10
1996 Cardholder # 6               3               1.0              3           1          1               1         N/A
1996 Cardholder # 7               7               0.4              3           0          0               1           0
1996 Cardholder # 8               5               1.8              9         N/A        N/A            N/A          N/A
1996 Cardholder # 9              12               4.2             50           3          9               1           3
1996 Cardholder # 10             12               1.3             15           3          3               2           1
1996 Cardholder # 11              6               0.0              0         N/A        N/A            N/A          N/A
1996 Cardholder # 12             12              24.7            296          45         33              34          26
1996 Cardholder # 13             12               2.3             28           3          2               0           2
1996 Cardholder # 14              3               0.0              0         N/A        N/A            N/A          N/A
              TOTAL                              55.0            603          87         64              57          51

                                       * Average computed for months when employee was a cardholder




                                                         Page 3 of 4
                                                 U.S.I.T.C.                                           Exhibit 5

                                                                                                   Cardholders'
                                                                                                       Monthly
                                                                                                        Usage




CARDHOLDERS $               May-96       Apr-96     Mar-96      Feb-96      Jan-96     Dec-95     Nov-95        Oct-95
1996 Cardholder # 1       5,445.17    6,049.43    2,366.25    2,282.19     (50.40)   1,620.65      (7.05)    6,812.75
1996 Cardholder # 2            -           N/A        N/A         N/A         N/A        N/A        N/A          N/A
1996 Cardholder # 3            -           -          N/A         N/A         N/A        N/A        N/A          N/A
1996 Cardholder # 4         450.00         -         38.12       43.77     116.91         -          -            -
1996 Cardholder # 5       7,054.34    3,868.57    4,156.94    2,270.00   1,459.00    3,094.00     195.00     2,969.37
1996 Cardholder # 6           N/A          N/A        N/A         N/A         N/A        N/A        N/A          N/A
1996 Cardholder # 7            -      2,775.00         -          N/A         N/A        N/A        N/A          N/A
1996 Cardholder # 8           N/A          N/A        N/A      (120.50)     97.95      528.00    (172.54)    3,349.45
1996 Cardholder # 9    $ 1,826.81 $ 3,571.34 $ 1,130.17 $ 3,143.66 $ 1,820.00 $ 6,103.01 $           -    $ 12,050.60
1996 Cardholder # 10        355.68      921.00       24.23      133.68        -           -          -            -
1996 Cardholder # 11          N/A          N/A         -           -          -           -          -            -
1996 Cardholder # 12      2,859.11    8,405.99    4,414.77    5,870.24   1,060.91    6,305.17     684.05     2,205.50
1996 Cardholder # 13           -           -           -           -     1,400.00      576.56     669.24       688.54
1996 Cardholder # 14          N/A          N/A        N/A         N/A         N/A        N/A         -            -
              TOTAL    $ 17,991.11 $ 25,591.33 $ 12,130.48 $ 13,623.04 $ 5,904.37 $ 18,227.39 $ 1,368.70 $ 28,076.21




CARDHOLDERS #              May-96       Apr-96      Mar-96     Feb-96       Jan-96     Dec-95       Nov-95      Oct-95
1996 Cardholder # 1           14           15           9          5            1          3            1          17
1996 Cardholder # 2            0          N/A         N/A        N/A          N/A        N/A          N/A        N/A
1996 Cardholder # 3            0            0         N/A        N/A          N/A        N/A          N/A        N/A
1996 Cardholder # 4            1            0           2          2            2          0            0           0
1996 Cardholder # 5            9            6           9          3            1          4            1           9
1996 Cardholder # 6          N/A          N/A         N/A        N/A          N/A        N/A          N/A        N/A
1996 Cardholder # 7            0            2           0        N/A          N/A        N/A          N/A        N/A
1996 Cardholder # 8          N/A          N/A         N/A          0            1          2            1           5
1996 Cardholder # 9            5            3           4          3            2          7            0          10
1996 Cardholder # 10           2            1           1          2            0          0            0           0
1996 Cardholder # 11         N/A          N/A           0          0            0          0            0           0
1996 Cardholder # 12          20           32          39         19            5         19            8          16
1996 Cardholder # 13           0            0           0          0            1          3            9           8
1996 Cardholder # 14         N/A          N/A         N/A        N/A          N/A          0            0           0
              TOTAL           51           59          64         34           13         38           20          65




                                                 Page 4 of 4
